<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2012 
=======================================================================




                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________

     SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS
                     KAY GRANGER, Texas, Chairwoman
 JERRY LEWIS, California             NITA M. LOWEY, New York
 FRANK R. WOLF, Virginia             JESSE L. JACKSON, Jr., Illinois
 TOM COLE, Oklahoma                  ADAM B. SCHIFF, California
 MARIO DIAZ-BALART, Florida          STEVEN R. ROTHMAN, New Jersey
 CHARLES W. DENT, Pennsylvania
 STEVE AUSTRIA, Ohio         

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
            Anne Marie Chotvacs, Craig Higgins, Alice Hogans,
                    Susan Adams, and Clelia Alvarado,
                            Staff Assistants

                                ________

                                 PART 5

                                                                   Page
 Testimony of Members of Congress.................................    1
 Testimony of Interested Individuals and Organizations............  127

                                   S

                                ________

         Printed for the use of the Committee on Appropriations


















PART 5--STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS 
                                FOR 2012
                                                                      


















STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
     SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS
                     KAY GRANGER, Texas, Chairwoman
 JERRY LEWIS, California              NITA M. LOWEY, New York
 FRANK R. WOLF, Virginia              JESSE L. JACKSON, Jr., Illinois
 TOM COLE, Oklahoma                   ADAM B. SCHIFF, California
 MARIO DIAZ-BALART, Florida           STEVEN R. ROTHMAN, New Jersey
 CHARLES W. DENT, Pennsylvania
 STEVE AUSTRIA, Ohio    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
            Anne Marie Chotvacs, Craig Higgins, Alice Hogans,
                    Susan Adams, and Clelia Alvarado,
                            Staff Assistants

                                ________

                                 PART 5

                                                                   Page
 Testimony of Members of Congress.................................    1
 Testimony of Interested Individuals and Organizations............  127

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE

 73-587                     WASHINGTON : 2012












                    COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\        NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\          MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia              PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia               NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey  JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                     ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama          JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri             JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                   ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho            DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana               SAM FARR, California
 JOHN R. CARTER, Texas                JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana          CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California              STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                   SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio           BARBARA LEE, California
 TOM COLE, Oklahoma                   ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                  MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida           BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania
 STEVE AUSTRIA, Ohio
 CYNTHIA M. LUMMIS, Wyoming
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas
 ALAN NUNNELEE, Mississippi
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    

               William B. Inglee, Clerk and Staff Director

                                  (ii)















STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2012

                              ----------                              


                    TESTIMONY OF MEMBERS OF CONGRESS

                              ----------                              

                                         Wednesday, April 13, 2011.

                      HOUSE DEMOCRACY PARTNERSHIP

                                WITNESS

HON. DAVID DREIER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

                Opening Statement of Chairwoman Granger

    Ms. Granger. The hearing will come to order. I want to 
welcome everyone to the subcommittee hearing on the Fiscal Year 
2012 State, Foreign Operations, and Related Programs 
appropriations bill. Thank you to all of the Members of 
Congress for being here today. And I will yield to Mrs. Lowey 
when she comes in.
    We will hear first from the Honorable David Dreier from 
California and the Honorable David Price from North Carolina.

                     Opening Remarks of Mr. Dreier

    Mr. Dreier. Well, thank you very much, Madam Chair. And let 
me congratulate you on the phenomenal job that you are doing in 
this very, very, very important position. When I think about 
your work and I think about the fact that as we focus on 
cutting spending, the American people believe that about half 
of the Federal budget is on foreign assistance, and I think it 
is a little bit less than that.
    Ms. Granger. Forty-nine percent less than that.
    Mr. Dreier. Forty-nine percent less than that. Exactly. In 
light of that, the responsibility of making sure that we take 
the very small amount that you work on on foreign assistance 
and expend it responsibly, making sure that there is not 
duplication or redundancy is a great challenge. And that is why 
Mr. Price and I have been privileged with you as having been a 
member, have been able to lead the House democracy partnership.
    And I can't tell you what an honor it was to be asked by 
Speaker Hastert in 2005 to lead this effort. I served as 
chairman and ranking member, and now I am chairman again. As 
you know from having participated on the Commission, Madam 
Chair, it is an entity that has focused on working by 
consensus. It really stems from I believe the speech that was 
delivered by Ronald Reagan at Westminster in 1982 in which he 
talked about the notion of developing the infrastructure of 
democracy.
    We saw in the late 1980s and the early 1990s the National 
Endowment for Democracy established. And you and I both serve 
on the board of the International Republic Institute and I 
really see the work of the House Democracy Partnership as going 
hand in hand with the National Democratic Institute, the 
International Republic Institute, the work of the National 
Endowment for Democracy and the vision that was put forward by 
Ronald Reagan in the 1980s.
    You will recall that in the early part of the 1990s when we 
saw the crumbling of the Berlin Wall and the demise of the 
Soviet Union, there was a Commission on which I was privileged 
to serve that was focused on the Parliaments in Eastern and 
Central Europe. And Mr. Price, while he wasn't a member of the 
Commission, participated in a number of our efforts there as 
well. And after success over a 4-year period of time, that 
Commission came to an end and we are dealing with the post-
September 11th world.
    Obviously as Mr. Price likes to--I say one election 
democracy does not make. Mr. Price likes to say the real hard 
work of developing institutions takes place between the 
elections. And that is really where the House Democracy 
Partnership comes in. We are not a revolutionary organization. 
We are not out there promoting democratization. That really is 
the work of the National Endowment for Democracy. After an 
election is held, recognizing that--as President Reagan said, 
developing that infrastructure of democracy is so important.
    We have been able to put a great deal of time and energy 
and effort in building the Parliaments in--right now we are 
partnered with 14 countries around the world. And we have, I 
believe, had a great deal of success. Obviously the most timely 
item--here comes the distinguished ranking member, Mrs. Lowey. 
It is nice to see you.
    Mrs. Lowey. I apologize for being a few minutes late.
    Mr. Dreier. So now I am even more outnumbered with all 
these appropriators, including Price here. Nita, you are nice 
to let just a humble member of the Rules Committee come 
stumbling in here with you.
    We are talking about the House Democracy Partnership, Nita, 
and the very important work that we are focused on in 
developing the Parliaments of new and re-emerging democracies 
around the world. And we are partnered with 14 countries. And 
it is very timely, because Mr. Price and I just returned from, 
among other places, Indonesia. And we know that Indonesia is 
the largest Muslim country in the world, the fourth most 
populous country on the face of the Earth, right behind the 
United States of America; 18,000 islands, 1,200 languages 
spoken there. And they have a 12-year-old democracy and they 
have taken to democracy like a duck to water. It is just 
phenomenal to see what has happened. And we played a key role 
in helping put into place what is called their sustaf law, 
which is a reform that helped develop independence for the 
Parliamentarian from the executive branch. I mean, can you 
imagine they had all the parliamentary staff hired by the 
President and his staff. And when we explained this to the 
President and others, they said, gosh. We shared our experience 
and they were able to bring about a change there. They haven't 
done it perfectly, but they have made a bold step in that 
direction.
    But the trip that we just had was particularly timely 
because of the Arab Awakening, and we know that the ``Made in 
America'' stamp cannot go into the Arab Awakening. But 
Indonesia has this 12-year experience, a new democracy. And so 
we were spending time there talking with them. And actually it 
was the Indonesian Ambassador who proposed to us this notion of 
sort of a tripartite effort in dealing with the Egyptian 
Parliament that is going to be elected in the coming months. 
And so this is something that is extraordinarily timely.
    We are involved in so many other countries. We have helped 
put together the budget process in Kenya. We helped in 
Macedonia with the first oversight committee process which we 
were able to observe. So there are lots of tangible things that 
we have been able to do with a very, very small amount of 
money. And I am here to ask, painfully, for actually less than 
we had last year and the years before.
    We have had $2 million. So we are going to ask for a 5 
percent cut, which would bring us to 1.9. And again, if you 
look at the kind of success that we have, again focusing on 
ensuring that we don't have redundancy, the uniqueness of it; 
because there are so many great organizations out there, 
nongovernment organizations and government organizations--
USAID, the State Department--who work on development of these 
institutions. There is no entity that looks at these new and 
re-emerging democracies and actually has a Parliament-to-
Parliament exchange. We have the Interparliamentary Union 
meetings with Canada, Mexico, the European Union, China, Japan 
and all, but to take countries like East Timor, Mongolia and 
have members of the United States Congress meet and interact 
and share our 222-year experience with them is something that 
has been phenomenal.
    And I know I am speaking for David Price when I say this. 
We regularly argue that we have both served here a long period 
of time and there is nothing that is more fulfilling and 
rewarding in the work that we do as Members of the United 
States Congress than to see the kind of benefit that we have 
been able to put into place here.
    And there is lots of very tough work ahead, as you all know 
very well. It is a dangerous world out there. There are places 
we are looking right now, like South Sudan. I mean, they will 
gain their independence in July. I mean, they had the vote on 
January 7th, but it will take place in July. And there are 
obviously--with this Arab Awakening, Egypt, Tunisia. I mean, 
you can go all the way across the board.
    So I think that there is a tremendous opportunity for us. I 
would like to be able to ask for more, especially with the Arab 
Awakening taking place now with the potential from having a 
great impact there. But I do thank you all. Kay served as a 
member of our Commission and did so very well. So I appreciate 
it and thank you both very much. And thanks to Charlie, too.
    Ms. Granger. Thank you.
    It is very important. And you are right, particularly at 
this time. And it has been a great learning experience to 
understand what this Commission does and the very hands-on 
experience.
    Mr. Dreier. We have another member of the Commission, Mario 
Diaz-Balart, who is a member of our Commission as well.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 13, 2011.

                      HOUSE DEMOCRACY PARTNERSHIP


                                WITNESS

HON. DAVID PRICE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH 
    CAROLINA
    Ms. Granger. Mr. Price.

                      Opening Remarks of Mr. Price

    Mr. Price of North Carolina. Thank you, Madam Chair. We 
appreciate your membership on the Commission and your support 
of the work. Mrs. Lowey, the previous chair of this 
subcommittee, has been a very, very faithful supporter and has 
been very intensely interested in our work too. So we are 
grateful for that.
    As my friend and colleague said, we have worked in a kind 
of perfectly bipartisan way on this Commission because we all 
believe in it. We have a fine group of Members from both sides 
of the aisle who believe in this work, understand the 
importance of it. And David Dreier is the founding chairman.
    Once again, Chairwoman, I chaired the Commission during the 
period of the Democratic leadership. So I will just add a few 
words that complement what my friend has said here. This is a 
unique Commission, I think. And it is very closely targeted. We 
are going into situations where our colleagueship, our support, 
is wanted and needed. We are dealing with a specific subset of 
countries where they have had free and fair elections and where 
they have shown some capacity for self-help, self-development, 
where they are actively working to develop effective 
institutions, but they are threatened with substantial 
challenges where our colleagueship, our support, our help, 
Member to Member, staff to staff, really can make a difference.
    So we are not taking on the whole world. We are taking on a 
very specific set of countries. And we have a very careful 
selection process where we decide what we have to offer can 
have the most effect. It is a unique program, as David has 
stressed. This brings together sitting Members of Congress and 
staff with peers in these legislatures. It offers, I think, for 
our partners a critical source of knowledge and expertise. It 
offers them political legitimacy, in a sense, because often 
what we are doing is giving an additional dimension to reform 
efforts within their own Parliaments and often we have seen 
that these groups are very eager students of our history. And I 
think we are giving them a boost not just in morale, but also 
in helping equip them for their role within their legislatures.
    And then finally, this is an important extension of our 
country's diplomacy. There are a number of situations, so it is 
strategic partners such as Pakistan, Afghanistan, Indonesia 
where we are adding a dimension.
    I have to say that I think often our diplomacy--and this 
includes, unfortunately, some of the codels that come out from 
this institution. Ironically, our own congressional delegations 
often will meet with the President, the Prime Minister, and 
they are on their way. What a mistake. What a mistake. 
Parliamentarians, of all people, should understand the 
importance of peer-to-peer relationships, and that is our 
business. That is what we are doing. And so we are establishing 
those relationships in the here and now.
    And then as we look at these young, often young members 
that we are working with, many reformers in their own 
institutions, what we are seeing there is future Presidents, 
future Prime Ministers, future leaders. We don't know who is in 
that room. But it is worth thinking about. It is worth thinking 
about engaging at a level that goes beyond just the top leaders 
of a government. And it goes beyond just whatever the bilateral 
issues of the day happen to be, because we have become partners 
in building effective institutions.
    I mean, David and I can both give examples. I can think of 
Georgia, I can think of Lebanon, where when crises developed, 
when crises occurred, we were served--Haiti, above all, where 
we were served very well. Our country was served very well by 
virtue of having these ongoing relationships. We didn't have to 
come in and introduce ourselves. We had a basis for 
conversation and for discussion that was I think an important 
adjunct to our country's diplomacy.
    So we are making a modest request. This is funding that 
will support some of our inbound visits, not just from 
legislatures, but also the work we do staff to staff. It 
provides some modest material assistance in the cases of 
greatest need. But it is an indication of support and 
partnership from this committee which we have valued in the 
past and we are happy to request be continued.
    Mr. Dreier. Could I just add one very important point that 
David touched on? And that is this notion of our Members going 
in and simply meeting with the Prime Minister or the President 
of the country. We would like to encourage--we know that you 
all, out of necessity, travel a lot in your position. And we 
have talked about how we encourage other committee chairmen to 
at least have, like, a 1-hour meeting. We know that often they 
are in a country for just a day or a day and a half. But the 
notion of spending 1 hour with the Speaker of the Parliament 
and leadership in those Parliaments, and if they can do more, 
that would be great. But I think that we want with this 
experience that we have, to try to encourage others to seize 
that when they get into--certainly the 14 countries with which 
we have partnered, and I think in other countries as well.
    Ms. Granger. Good. Thank you for that. I think that is 
important. We are considering a trip to Indonesia in this 
coming year, Mrs. Lowey and I have talked about it, and some of 
the other countries.
    Mr. Dreier. Well, we have got all the people that you 
will----
    Ms. Granger. That will be helpful, we always need to keep 
in mind.
    Mrs. Lowey. You were both so eloquent, I just wanted to 
thank you. I am very familiar with your work and I know that 
the chair and I support your work. And hopefully the budget 
will allow us to continue to support your work. But thank you 
so much.
    And, David, when you talk about these young people, to us 
they are pretty young, not to everyone. Thank you very much.
    Ms. Granger. Thank you for taking the time. I appreciate it 
very much.
    Mr. Dreier. Thanks.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, April 13, 2011.

                 INTERNATIONAL AFFAIRS BUDGET FOR 2012


                                WITNESS

HON. BARBARA LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Granger. We will hear next from the Honorable Barbara 
Lee from California. You will be recognized for 5 minutes. Good 
to have you here.

                       Opening Remarks of Ms. Lee

    Ms. Lee. Thank you very much, Madam Chair. I am glad to be 
back before this subcommittee. I do miss this committee. I just 
want to thank you and our ranking member and all of the members 
for giving me the opportunity to testify, and also just say I 
miss this subcommittee because it was such a bipartisan 
subcommittee. And I look forward to one day coming back.
    In the meantime however, thank you for giving me a chance 
to be able to talk with you about this budget. And I know 
everyone on this committee agrees that a robust international 
affairs budget really is a reflection of our values and our 
ideals as a country, but also is really key in terms of our 
national and economic security. So I would like to ask that my 
full testimony be submitted for the record and I will try to 
summarize what I have in it. First of all, the ongoing tragedy 
of course in Japan really is an example of our obligation to 
demonstrate leadership and the humanitarian spirit of the 
United States in aiding those most in need.
    The ongoing relief and reconstruction efforts in Haiti, 
just off our shores, are another perfect example of the United 
States acting to save lives while helping to build a foundation 
for an improved governance and to empower people to lift 
themselves out of poverty. The President and the Congress have 
committed the United States to support the ongoing relief and 
reconstruction efforts in Haiti, and so that is a commitment 
that will be of course measured by our resolve here to fully 
fund the President's request for these programs within the 
International Affairs budget.
    This budget really does form the backbone of U.S. 
diplomatic and development capabilities. And the vital work of 
the State Department, USAID, and other critical economic and 
trade and development agencies really come within your 
jurisdiction here. So the impact of these programs around the 
globe are also multiplied by leveraging our partnerships in the 
international community, especially the United Nations, to 
promote global peace and security, to improve health, reduce 
hunger and poverty.
    So I know you are very aware of the long history of 
bipartisan support from many of these efforts, first as it 
relates to HIV and AIDS; we all work together on PEPFAR, the 
global fund. So I urge the subcommittee to meet the bipartisan 
commitments to fight global AIDS that the Congress and 
President Bush made in 2008 by providing the 7.25 billion for 
PEPFAR and 2 billion for the Global AIDS Fund to fight TB, AIDS 
and malaria. Again, these small investments really do pay a 
huge dividend in saving lives and in the economic health and 
national security efforts that are important for our own 
country. And I think all of you have witnessed some of these 
programs throughout the world and how successful they have 
been.
    In the same spirit, when you look at maternal mortality 
rates, I think there is 1 billion for international family 
planning and reproductive health programs, which includes the 
vital support for activities of the United Nations population 
fund. Very, very important for women throughout the world. 
Also, at last year's U.N. Millennium Goal Development Summit, 
the summit, of course, rededicated themselves to achieving 
vital development goals by 2015. So I really hope the 
subcommittee will continue to provide the needed resources 
requested by President Obama to restore USAID and the world's 
premier development agency in support of this very worthwhile 
mission.
    Also when you look at environmental degradation throughout 
the world, this subcommittee I hope will continue to provide 
robust funding for climate change mitigation and adaptation 
activities which include--and let me just list this. It is 225 
million for USAID's biodiversity conservation programs, at 
least 60 million for the Global Environment Facility's Least 
Developed Countries Fund and a fair U.S. contribution to the 
soon-to-be-established International Green Climate Fund, which 
is extremely important.
    Also, the International Affairs request for--I think it is 
in the President's budget--development, diplomatic and non-war 
activities is really a modest amount, 53.1 billion, which is I 
guess 1.4 percent of the total fiscal year 2012 budget. I think 
the public thinks it is about 25 or 30 percent. But to me, 1.4 
percent is just dismal. But you have to look at the overseas 
contingency operations for ongoing wars in Iraq and 
Afghanistan. That still totals less than 2 percent of the 
fiscal year 2012 Federal budget, which I think we have .38 
percent of GDP. So these are really in stark contrast to the 
700 billion budget of the Pentagon, which now consumes over 50 
percent of discretionary spending.
    More critical than the direct cost of our international 
programs really is the enormous economic savings that we 
receive and that are yielded from strengthening the economic 
and diplomatic relationships addressing the root causes of 
terrorism and instability and preventing conflicts before they 
start.
    For instance, estimates of the cost per year to maintain a 
U.S. soldier in the field are as much as 10 times that of 
deploying a civilian aid worker. The reality is particularly 
relevant today as we remain embroiled in two wars. I say three 
wars. Some say military engagement in Libya. We have already 
spent $1.2 trillion in Iraq and Afghanistan. And at the same 
time, we are fighting here in Congress to protect investments 
in education, health care, public health and safety, trying to 
create jobs, the war in Afghanistan and Iraq--well, Afghanistan 
will cost more than $100 billion in 2011 alone. So I don't know 
how we are going to continue to afford the cost of these 
enormous wars, both in blood and in treasure.
    And I think that we have to enhance our U.S. diplomatic 
capabilities and invest in job creation, of course, and in 
jump-starting our U.S. economy.
    Finally, as we look toward ending the costly war in Iraq, 
hopeful, in transitioning to a military drawdown in 
Afghanistan, I hope that this subcommittee retains the 
provisions that I have worked on for many, many years, barring 
the establishment of permanent military bases in Iraq and 
Afghanistan. This policy sends a clear signal that the United 
States does not seek a foreign presence in Iraq, foreign 
military presence in Iraq and Afghanistan, and it has been 
supported and signed into law by President Bush and President 
Obama. So I hope this stays in the language of this 
subcommittee report.
    We must be cognizant that the American people do support 
strengthening U.S. humanitarian and development programs around 
the country--around the world, but I don't believe they realize 
that it is the small percentage of our budget.
    And I just want to end by quoting the Foreign Assistance 
act which was signed into law on September 4, 1961. It said the 
traditional humanitarian ideals of the American people and its 
commitment to assist people in developing countries to 
eliminate hunger, poverty and illness, the myriad of challenges 
we face around the globe have grown, ranging from the rise of 
multinational terrorism and the proliferation of weapons of 
mass destruction, to climate change. The International Affairs 
budget, of course, here is directly related to our ability to 
meet these challenges. And so the only question is, again going 
back to 1961: Do we recommit ourselves to the diplomatic and 
development agencies by providing them the resources they 
require to do the vital work?
    I believe that we can do this. And so I hope that we will 
support a robust International Affairs budget. And we will do 
everything to work to make that happen. Thank you again.
    Ms. Granger. Thank you for your continued interest in this 
and thanks for taking out the time to come here.
    Ms. Lee. Thank you again very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We are going to now hear from the Honorable 
Earl Blumenauer from Oregon. You will be recognized for 5 
minutes. And I am going to put this right in front so people 
can see it.
    Mrs. Lowey. Let me just thank Barbara Lee and assure you we 
continue the work in a bipartisan way. I have two letters which 
I would like to place in the record, as we note many times, I 
have talked about diplomacy and development critical to 
maintaining U.S. global leadership, protecting our national 
security, and promoting economic growth. Leaders from industry, 
the military, NGOs and the faith community have all publicly 
recognized the importance of diplomacy and development to a 
national interest. In fact, the U.S. Chamber of Commerce noted 
that, quote, ``The International Affairs budget is critical to 
U.S. economic engagement with the world,'' and that, quote, 
``diplomacy and development programs are essential to creating 
jobs and in spurring economic growth in the United States.''
    I would like to ask unanimous consent for this letter to be 
entered into the record.
    In addition, in a recent letter to Congress, a group of 70 
retired military officers noted that, quote, ``Development and 
diplomacy keep us safer by addressing threats in the most 
dangerous corners of the world by preventing conflicts before 
they occur. We must be able to improve our fiscal situation 
without sacrificing American leadership in the world,'' end 
quote.
    I ask unanimous consent that this letter also be entered 
into the record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lowey. And I thank the chair.
    Ms. Granger. Very good. Thank you.
    Any members that have any comments or questions, speak up 
at any time.
                              ----------                              

                                         Wednesday, April 13, 2011.

           SAFE DRINKING WATER AND SANITATION SUPPLY PROJECTS


                                WITNESS

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Ms. Granger. We will go now to the Honorable Blumenauer.

                   Opening Remarks of Mr. Blumenauer

    Mr. Blumenauer. Thank you, Madam Chair, Ranking Member 
Lowey. I am here, first and foremost, just to thank you. I 
spent 10 years of my life with our former colleague, Henry 
Hyde, working on the Water for the Poor Act, and then its 
implementation. And I have been overjoyed by the efforts of 
this subcommittee, because literally millions of lives haven't 
just been improved, but we can document that they have been 
saved.
    This Committee has moved us from the days when the United 
States spent something like $70 million on water and 
sanitation, and only a pittance in sub-Sahara in Africa where 
there is the greatest need, to where now there is almost a 
third of a billion under your purview, about a half a billion 
overall, that has made a tremendous difference in terms of 
being able to provide sanitation facilities for over 50 million 
people, 9 billion gallons of water. You understand the impact 
because you travel around the world and you see the devastating 
effect the lack of access to drinking water and sanitation has 
and what difference this funding makes.
    I am heartened by the bipartisan support that has developed 
from the business community, the entire community of faith, the 
NGOs that you work with, realizing that this is the number one 
public health issue in the world. Half of the people who are 
sick today worldwide are sick, needlessly, from water-borne 
disease. Before you are done today, nearly 500 children will 
have died; and it is within our capacity to do something about 
it.
    I understand you have a very difficult challenge. But I 
hope that we can do two things. One is that we can at least 
maintain the level of funding from FY10, because I will match 
this against any expenditure you will make for foreign or 
domestic assistance anywhere in the world in terms of what it 
does for women, who no longer have to go get water, or for 
children who aren't at risk. This is something that is very 
unlikely to end up in some despot's bank account in 
Switzerland. And it buys goodwill because there are lots of 
things that we argue about in the international arena, 
sometimes even in Congress. But safe drinking water and 
sanitation, saving the lives of children, teaching them how to 
work on a sustainable basis, that is not one of them. That is 
not one of them.
    And because of your efforts, we have been able to implement 
the Water for the Poor Act. The State Department and USAID now 
have senior-level water advisors, they have got a plan, they 
are integrating efforts around the world to be much more 
effective.
    Secretary Clinton last year gave an eloquent speech on 
World Water Day at the National Geographic Society. I mean, 
this is part of something that our government has done that 
every Member can be proud of.
    But I hope the second thing that we can do with your help 
is to start changing the direction, because even though overall 
we have provided a half a billion dollars, as far as the world 
community is concerned, the richest, most powerful Nation in 
the world that spends billions, as you know, on all sorts of 
foreign aid, sadly--we are behind Japan, we are behind Germany, 
we are behind France, we are behind Spain in terms of real 
dollars. And when we put it in terms of GDP, we are dead last. 
And I think we can do better than that. It is not that there 
aren't resources that can potentially be shifted and leveraged 
for health, for education, for safety of people.
    And you have another hat that you are wearing in terms of 
international conflict and the international economy. The 
economic loss, because of this needless disease and illness and 
the time spent gathering water, is unbelievable. In India, I 
think it is $70 billion a year in lost productivity.
    And you are as aware as anybody in Congress about the 
conflicts around the world. There are 261 water basins that are 
shared by more than one country. And with climate change, with 
extreme weather events, with growing population pressures, 
water is only going to be more of a challenge.
    So I come to you, thanking you for what you have done in 
recent years. I know it wasn't easy. But I sincerely hope that 
you will look at other areas within your purview and think 
about being able to beef this up a little bit, because there is 
no doubt in my mind that there is nothing you will do that will 
have a more lasting effect, garner more friends for the United 
States, be more in tune with the objectives that you are 
fighting for in so many other areas, than water and sanitation, 
and you will feel very good about every dollar that you put in 
this area.
    I appreciate your courtesy. I have a somewhat more 
extensive presentation which I will enter into the record. And 
I will leave just one other little piece. I won't talk about 
it, but it is providing the technical assistance under our 
trade agreements for the enforcement of some of these 
environmental provisions that make a big difference that you 
can help advance. Thank you.
    Ms. Granger. Thank you very much for coming. Thank you for 
your words. It is a very important issue that you are talking 
about. So thank you.
    Mrs. Lowey. When I look at you, Earl, all I think of is 
water, water, water, besides commenting on your lovely tie.
    Mr. Blumenauer. Actually, she thinks I am all wet.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, April 13, 2011.

          GLOBAL HUNGER, FOOD SECURITY AND NUTRITION PROGRAMS


                                WITNESS

HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Ms. Granger. We will hear next from the Honorable James 
McGovern from Massachusetts. You are recognized for 5 minutes. 
I am glad you are here.

                    Opening Remarks of Mr. McGovern

    Mr. McGovern. Thank you very much, Madam Chairwoman and 
Ranking Member Lowey and members of the subcommittee. Thank you 
for allowing me the opportunity to testify today in support of 
America's global food security, nutrition, agricultural 
development, and hunger programs. And I ask unanimous consent 
that a more lengthy statement be put in the record.
    I ask the committee to support the President's fiscal year 
2012 budget request of $1.558 billion for the Feed the Future 
Initiative and the Development Assistance Account; $150 million 
for nutrition programs in the Global Health and Child Survival 
Account; and $300 million for the International Disaster 
Assistance Account for emergency food security and other 
interventions for vulnerable people and humanitarian crisis.
    I also ask that the committee provide the funds requested 
for the Global Agriculture and Food Security Fund for 
multilateral investments through the U.S. Department of the 
Treasury.
    We all know that the other donors look to the United 
States' contribution to determine their own level of funding, 
and it is hard for us to take other nations to task if we fail 
to meet our own funding commitments. Madam Chairwoman, I 
strongly believe that global food security programs are 
critical to our immediate and long-term national security and 
economic interests. I do not use these words lightly or in 
hopes of taking advantage of a trendy phrase in times of hard 
budget choices. I believe this, and I feel the facts support 
me.
    Starting in the last 2 years of the Bush administration, 
the National Intelligence Estimate began to monitor 
international food insecurity as a potential threat to U.S. 
national security. During 2007 through 2008, the last global 
food crisis, there were major food riots in nearly 40 
countries. It was a wake-up call for us and for the world 
community.
    In January of this year, the United Nations reported that 
the cost of basic food commodities were at the highest levels 
since the U.N. created this index. World Bank President Robert 
Zoellick announced that the Bank's food price index showed food 
prices are now 29 percent higher than a year ago. He called 
upon the G-20 nations to, quote, ``put food first on their 
agendas.''
    This is a global security crisis. The lack of food security 
contributes to instability. Food was a primary reason people 
took to the streets in Tunisia. Food and poverty were at the 
top of the list in the squares of Egypt. Without greater 
investments to address food insecurity, we will not be able to 
significantly reduce the current number of undernourished 
people in the world. This will have serious implications not 
only for our efforts to reduce poverty, but for political 
stability across the globe.
    Beginning with the Bush administration and continuing under 
the leadership of Secretary Clinton and USAID Administrator 
Shah, the U.S. has designed a comprehensive strategy to reduce 
hunger and increase food security, nutrition, and agricultural 
development. Feed the Future is the signature program of this 
strategy. It works with small farmers and governments to 
increase agricultural production and strengthen local and 
regional markets. It aims to reduce hunger, increase outcomes, 
and grow economies.
    Over a defined period, targeted nations will markedly 
improve their ability to feed their own people and reduce their 
dependence on the United States and international aid. 
Agriculture production is coupled with strong programs to 
reduce child malnutrition, which, as we all know, robs nations 
of their future economic potential.
    These programs fall under your jurisdiction. They are 
complemented by the McGovern-Dole international Food for 
Education and Child Nutrition Program and P.L. 480, Food for 
Peace, Emergency and Chronic Hunger Food Aid Programs. These 
two programs fall under the jurisdiction of the Agriculture 
Appropriations Subcommittee.
    Madam Chairwoman, I have never heard any of our colleagues 
say that they would like to see more hunger in the world. I 
have never heard anyone say that they want to see more children 
too weak from hunger to be able to learn, or that they want 
more young girls to be forced to work long hours because they 
are no longer being fed at school. And I have never heard 
anyone say that they would like to see small farmers around the 
world fail to make a living because they produced too little 
and what they do harvest can't get to market. But those are the 
consequences if we fail to invest in Feed the Future, child 
nutrition and other global hunger programs.
    This comprehensive strategy did not exist in 2008. Congress 
demanded that it happen. We demanded, on a strongly bipartisan 
basis, that U.S. agencies come together, plan together, work 
together, and design and carry out a government-wide strategy 
that would significantly increase America's ability to reduce 
global hunger and increase food security. They have done what 
we have asked them to do. Now, we must provide the funds 
required to ensure success.
    Madam Chairwoman and Ranking Member Lowey and others on 
this committee have done an incredible amount of work on a 
number of these programs over the years. And I would just 
conclude with this: that there are some problems that we can't 
solve in our lifetime, but hunger isn't one of them.
    Hunger is a political condition. We know what needs to be 
done. The world has the resources and the support structures 
and the infrastructure to help nations be able to become more 
agriculturally self-sufficient. To help them to be able to feed 
their own people. What we have lacked over the years is the 
concerted political will to make it happen. And I hope that we 
will muster the political will and adequately fund these 
programs so that this strategy can work. Thank you.
    Ms. Granger. Thank you, Mr. McGovern. Thank you very much 
for being with us and taking the time.
    Mr. McGovern. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, April 13, 2011.

SUPPORT FOR INTERNATIONAL NARCOTICS CONTROL AND LAW ENFORCEMENT (INCLE) 
                     AND SECURITY EFFORTS IN MEXICO


                                WITNESS

HON. SILVESTRE REYES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Ms. Granger. We will hear now from the Honorable Silvestre 
Reyes from Texas. You are recognized for 5 minutes. Good to see 
you.

                      Opening Remarks of Mr. Reyes

    Mr. Reyes. Nice to see you all.
    Madam Chair and Ranking Member Lowey and members of the 
committee, thank you for giving me this opportunity to come 
before you. I have extensive written testimony that I will 
submit for the record. But with your permission, I would like 
to just summarize and highlight some of the key points here 
this morning before your subcommittee.
    I appreciated the opportunity to join you Madam Chair on 
the CODEL trip to Central and South America--that included 
Mexico. I think we all got a very good perspective on the kinds 
of challenges that are being faced by Mexico, Guatemala, 
Panama, and Colombia and others in terms of the cartels and the 
criminal transnational gangs that are affecting our southern 
border.
    So I am asking you to support and fully fund the efforts 
started under the Merida Initiative, and that the Committee 
also include funding for the country of Guatemala. I think we 
saw firsthand in the CODEL how they are being impacted 
primarily by the Zetas, but any cartel will take advantage of 
that situation.
    As I have mentioned many times, I represent the safest 
large city in the country of half a million people or more. 
Ironically, right across the border from El Paso is Ciudad 
Juarez, which is arguably one of the most violent cities in the 
Americas. I cannot say enough about the job that President 
Calderon has done in partnership with us and under the 
assistance of the Merida Initiative. He has worked with us to 
combat the cartel, the transnational criminal elements, and all 
of those challenges that we face and are ultimately impacted by 
including narcotics smuggling which goes through our ports of 
entry.
    I want to highlight the work under the four different 
pillars of the Merida Initiative that Mexico and the United 
States are working on.
    The first is pillar one, as we refer to it, and it aims to 
disrupt organized criminal groups. These are the transnational 
and cartel groups that are impacting the Mexican side of our 
southern border in places like Ciudad Juarez but also across 
Mexico, Central and South America.
    Pillar two aims to strengthen institutions, which is the 
ongoing training that we are providing both the police 
agencies, the judiciary and judicial system, trying to not have 
them replicate our system, but certainly have a system that is 
more in tune with modernizing theirs in the hopes that also 
works to eliminate corruption, which as we all know is a big 
issue in Mexico.
    The third pillar aims to create a 21st century border. 
Right now most crossings into the U.S. occur at our ports of 
entry and certainly narcotics going through our ports of entry 
as well. We have ports of entry that were not designed to have 
inspection capability going both ways.
    Madam Chairman, as you know, President Calderon has 
complained loudly about our guns going into Mexico through our 
ports of entry. So we need to update, remodel, and make these 
ports of entry work along our southern border for both 
northbound and southbound inspections.
    And then there is pillar four which aims to build strong 
and resilient communities in our respective countries. I cannot 
say enough about the work that the USAID is doing in this area. 
They have really stepped up and helped--especially as it 
relates to Ciudad Juarez, because the criminal violence 
perpetrated against the people of Ciudad Juarez creates a very 
bad environment.
    In closing, before my time runs out, I want to urge you to 
support funding for the International Boundary and Water 
Commission. They work in concert with USCBP. I will just give 
you one quick example. Right between El Paso and Ciudad Juarez, 
there is a segment of the border that is unfenced but will be 
fenced probably in the next year. That area also has an open 
canal that directly goes into one of our water treatment 
plants. The community has very serious concerns about leaving 
the water plant on the southern side of the fence. Without 
proper monitoring this would make it a potential target for 
terrorists wanting to do something to the water supply. In 
addition, this plant plays a key part in our ability to control 
stormwater that prevents flooding in the downtown areas of El 
Paso. So I strongly urge that you fully fund the International 
Boundary and Water Commission so they can continue the critical 
work they are doing there with CBP and the Department of 
Homeland Security to protect our water system.
    So with that, I want to thank you again for this 
opportunity. And thank you for the work that your subcommittee 
is doing to address all of the many issues you have heard from 
Members and will hear from Members this morning. Thank you very 
much.
    Ms. Granger. I am glad you brought up President Calderon's 
talk to us when we were there about working together for a safe 
border, which is something that we should all pay attention to. 
And it makes all the sense in the world that we are working 
together that way for different reasons of what is happening to 
our own countries. Thank you very much.
    I have to say as we returned from that trip, I thought it 
was a very valuable trip, seeing what is happening in Colombia, 
Guatemala, very important; but stunned that the Secretary of 
Homeland Security, that very day that we were coming back, said 
that the borders were safe and have never been safer or 
something. I took issue with in a letter that I wrote and said, 
this is not our experience. But I was very impressed--I think 
we all on that trip were very impressed with what Mexico is 
doing and the cooperation between the two countries. They are 
making progress.
    Mr. Reyes. If I can just comment. Part of the frustration 
of representing our border districts, like the one I 
represent--and I reiterate again, I represent the safest large 
city (with populations over 500,000) in the country--is the 
fact that the national media sensationalizes what they 
categorize as spillover violence. We have seen no spillover 
violence right in El Paso, ground zero, across from the most 
violent city that has been impacted in Mexico, Ciudad Juarez.
    But your comment helps me to underscore one more issue, and 
that is that economic trade and commerce is vitally important 
to both the United States and Mexico. As you know, Madam Chair, 
coming from Texas, Mexico is Texas' number one trade partner 
and it is also either two or three, depending on what year you 
look at, for the United States after the passage of the North 
American Free Trade Agreement. So it behooves us to do a better 
job and prioritize our ports of entry that facilitate that 
commerce. So, again, thank you for listening.
    Ms. Granger. Thank you very much. Thanks for being with us.
    Mrs. Lowey. Thank you.
    [The information follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, April 13, 2011.

                 2012 FUNDING FOR THE EAST-WEST CENTER


                                WITNESS

HON. MAZIE K. HIRONO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    HAWAII
    Ms. Granger. We will hear next from the Honorable Mazie 
Hirono from Hawaii. You are recognized for 5 minutes. Thank 
you.
    Ms. Hirono. Thank you so much, Madam Chair and Ranking 
Member Lowey, for this opportunity to testify before you. I am 
here to ask for your support of the East-West Center, which, 
although located in Hawaii, has international programs and, in 
fact, they have programs in most of the Members' States. And 
that might be a surprising thing for you to know.
    For example, in your State there are some 718 alumni of the 
East-West Center; In your State, about 719; and in your States, 
some several hundred, not to mention a lot of education 
programs we do with your high schools and universities to focus 
on an Asia-focused curriculum.
    As I said, the Center was created 50 years ago and it is 
not a foreign aid program and people make that mistake, that 
somehow the East-West Center is an arm of our foreign aid. It 
is not. It is pure public diplomacy. And it is aimed at 
projecting American interests and values in the Asia and the 
Pacific. This is a huge area of the world. And the East-West 
Center is one of those entities that work with leaders 
throughout this area to basically make friends for America. And 
it is really the use of smart power in a really, really focused 
smart way.
    So, of course, I would ask for support of funding for the 
East-West Center to the extent of 21 million, which is the 
funding at the 2009 levels.
    I just want to mention that Congressman Kevin Yoder, who is 
a new member of your full committee, is a participant in the 
East-West Center program and I understand that he considers 
that to have been a very valuable experience.
    The East-West Center has also played host to people who 
have become Nobel Laureates. For example, Muhammad Yunus, who 
is a Nobel Laureate; S.R. Nathan, who is the President of 
Singapore; Manmohan Singh, who is the Prime Minister of India; 
Patra Mostet, the first Thai woman elected to Parliament; and 
Sung Chul Yang, former South Korean Ambassador to the United 
States.
    These are the kinds of friends that we make, and I know 
from having talked with the leaders of the East-West Center 
there are literally thousands and thousands of people all 
throughout the Asia-Pacific area. These are people who are in 
leadership positions in all of these countries who have had 
experience with the East-West Center, who consider the East-
West Center to be really one of their initial exposures to 
Americans. So I think it is very important.
    And as I mentioned, the Center also focuses on Asia-related 
curricula in various schools, including the most recent. I know 
that Mrs. Lowey knows that Scarsdale High School in New York, 
where they instituted a program that focused curriculum on 
allowing the students to learn more about this vast and 
important area of the Pacific. So your husband, I believe, 
attended that session, the University of Illinois-Chicago, 
Chandler School and Mayfield Senior Program in Pasadena, 
California, Logan Elm High School in Circleville, Ohio. Note 
that I focused on the places where you all are members. We are 
not stupid. I want to hit you where it might make a difference.
    And one of the other aspects of the Center's work is to 
focus on the Pacific island leaders. And there is a conference 
called the Pacific Island Conference of Leaders. And this 
includes the leaders of 20 Pacific island nation states and 
territories. When I was lieutenant governor of Hawaii, I 
attended one of these PICL meetings, the conferences. Hawaii is 
the only State that is a member of PICL, because to the Pacific 
islander, Hawaii is yet again their exposure to American ways 
and they consider Hawaii's involvement in PICL to be an 
acknowledgement of the importance of their nations in this vast 
area of the world.
    So the President's budget recommends 10.8 million. This 
represents almost a 50 percent cut in the 2009 budget of 21 
million. They would have to cut around 120 of the 190 positions 
that they have there.
    Now, my colleague said that he represents the safest city 
in the country. And I want to keep it that way, especially as 
we play host to APEC. I believe this is the first time that 
APEC is meeting in our country in many, many years. And clearly 
the security issues are paramount. The East-West Center is one 
of the focal entities, or one of the major entities, that is 
helping our State Department to put on the APEC conference of 
leaders. And as you know, APEC includes the United Kingdom, the 
Republic of Korea, the Federated States of Micronesia. Those 
are the other countries that have supported the East-West 
Center. So they are not just relying on Federal monies. They 
have gone out and sought help from--financial help from Japan, 
other places.
    Getting back to APEC, I misspoke. It is actually including 
countries such as Japan, China, Russia, Australia, Korea. So 
this is a very big deal for our country. The APEC meeting in 
Honolulu will be a time where these leaders from the business 
arena from these countries will also converge in Honolulu. So 
the East-West Center is an integral part of the planning for 
that conference or that meeting. And if you are interested, I 
have a State-by-State breakdown of the various programs and the 
alumni in each of your States, and I would be happy to submit 
that as part of my testimony.
    Ms. Granger. Thank you. Please do.
    Ms. Hirono. And that ends my very strong appeal to all of 
you to make sure that our ability to pay attention to the 
Pacific area and Asia continues strong. With your help, it 
will.
    Ms. Granger. Thank you very much. Thanks for being with us.
    Mrs. Lowey. Thank you very much.
    Ms. Hirono. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, April 13, 2011.

      DEFUNDING OF DEMOCRACY PROMOTION PROGRAMS OPERATING IN CUBA


                                WITNESS

HON. DONNA EDWARDS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Ms. Granger. We will hear next from the Honorable Donna 
Edwards from Maryland. You will be recognized for 5 minutes.
    Ms. Edwards. Thank you very much. And I appreciate being 
here today. I want to thank, first, Chairwoman Granger and 
Ranking Member Lowey and the rest of the committee for the 
opportunity to testify here today.
    I am here to urge the committee to defund the democracy 
promotion programs with respect to those programs that are 
operating in Cuba. I have an internal and local interest in 
this program. A Marylander named Alan Gross is in a Cuba 
prison, sentenced for 15 years; just recently sentenced for 
carrying out activities under this program, which I think is 
really unwise and it has been counterproductive. Administration 
officials have called for Mr. Gross' release, as well as former 
President Jimmy Carter.
    I recently visited Cuba just about 2 weeks ago and had 
meetings with Cuban officials, and the Catholic bishop there 
also requested Mr. Gross' release on humanitarian grounds. They 
haven't been granted. I think that the activities that are 
funded under this program are both illegal already under Cuba 
law. And by continuing the funding for them under the current 
form, we put innocent Cubans and clearly vulnerable Americans 
at risk for no good purpose, like my fellow Marylander, Mr. 
Gross.
    And because of the complications with these programs in 
Cuba, the program has not produced concrete results. In fact, 
despite the expenditure of $150 million since the inception of 
the program, they have failed to deliver. And it seems contrary 
to the way we need to be moving forward in order to improve our 
relationships with Cuba and with the Cuban people, people-to-
people contact, including educational and cultural and research 
exchange.
    I know that the administration is in the process of 
evaluating how the rules are going to be in place for those 
exchanges to move forward again.
    The administration has also already increased the ability 
of Cuban Americans to travel to Cuba. I think this is really 
helpful to our long-term interests in Cuba. My understanding is 
that up through this first quarter, there are literally double 
the number of Cuban American families from the United States 
traveling back to Cuba over the high watermarks when travel 
restrictions were first in place.
    So I think that we have to redouble our efforts to 
strengthen our relationship directly with the Cuban people even 
when we don't agree with their government structure, the 
decisions of the government.
    This kind of approach to democracy that we have taken in 
multiple other countries and presents a problem for leaders on 
humanitarian challenges, dubious or nonexistent commitment to 
democracy. Our approach in terms of how we deal with those 
countries is very different. I would note the ways in which we 
are recently dealing, for example, with human rights violations 
that are occurring in China and in other areas of the world, 
and our approach is to not completely disengage from the 
government or the people of the government, but actually to 
engage. And I don't think that the democracy program as it 
exists right now, as it has been implemented, actually furthers 
that kind of purpose.
    I am grateful that Senator Kerry on the Senate side has 
taken a strong stand against continuing to invest in the 
democracy programs until a full review of the program is 
complete. In a statement released by Senator Kerry, he said the 
following: ``We all hope the Cuban people achieve greater 
freedom and prosperity in the future, consistent with their 
aspirations.'' And I have applauded the administration's 
commitment to expand people-to-people contact between our two 
countries.
    There is no evidence, however, that the democracy promotion 
programs which have cost U.S. taxpayers more than $150 million 
are helping the Cuban people, nor have they achieved much more 
than provoking the Cuban Government to arrest a U.S. Government 
contractor who was distributing satellite communication sets to 
Cuban contacts.
    Before we commit $20 million, a full review of the program 
should be undertaken and the administration should consult with 
Congress. The GAO, Senator Kerry continued his investigation of 
fraud and abuse in these programs in the past and is already 
undertaking another investigation at his request into the legal 
basis and effectiveness of the operations. I would urge the 
committee to do the same and to require the same sort of 
stringent standards of review that we would require for the 
implementation of other kinds of programs; $150 million in this 
current economic environment is unbelievable when we don't even 
have an ability to point to success.
    So I would urge the subcommittee to cease funding of the 
program in Cuba until there is a justification and evidence 
that the program is working and helping the people it was set 
up to help. It is the least the taxpayers deserve and should 
expect within the expenditure of our resources. And it is my 
hope that no other innocent American falls victim to these 
policies like Mr. Gross and his family have fallen victim. And 
I thank you for your cooperation and your time.
    Ms. Granger. Thank you very much for appearing before the 
subcommittee. We appreciate your remarks.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Diaz-Balart. Madam Chairwoman, if I may very briefly. I 
would like to enter into the record the Universal Declaration 
of Human Rights, which of course this subcommittee is very 
familiar with. You know Mr. Gross was in Cuba distributing 
communication equipment to the Jewish community in accordance 
to article 19 of the Declaration of Human Rights.
    Let me just read. It is very short. ``Everyone has a right 
to freedom of opinion and expression. This right includes 
freedom to hold opinions without interference and to seek, 
receive, and impart information and ideas through any media and 
regardless of frontiers.''
    This is, again, the Universal Declaration of Human Rights 
that I would like to submit for the record, if that is all 
right.
    Mr. Gross was not arrested by U.S. policy. He was arrested 
by the Cuban regime. It is the same Cuban regime who murdered 
four Americans who were flying in international airspace on a 
humanitarian mission, just looking for rafters and people who 
were--in trying to save their lives. They were not murdered by 
U.S. policy. They were murdered by the regime.
    So again, I would just like to enter that into the record, 
the Universal Declaration of Human Rights, in particular 
article 19, which is exactly what Mr. Gross and what our policy 
has to do with allowing Cubans to have access to 
communications, like the Egyptians have access to 
communications, like in Syria or in Libya. And we all know that 
Cuba is among the most closed societies where Internet is 
outlawed, where even having the Universal Declaration of Human 
Rights in your possession is enough to throw you in prison. 
That is not U.S. policy. That is the Cuban regime's policy. So 
anyway, if that is all right, I would like to submit that for 
the record.
    Ms. Granger. Thank you so much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, April 13, 2011.

ECONOMIC AND MILITARY ASSISTANCE TO ARMENIA AND DIPLOMATIC SUPPORT FOR 
                     DEMOCRACY IN NAGORNO KARABAKH


                                WITNESS

HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Ms. Granger. We will next hear from the Honorable Frank 
Pallone from New Jersey and he will be recognized for 5 
minutes. I appreciate your being here.
    Mr. Pallone. I thank the chairwoman. And thank you, Mrs. 
Lowey, also. I would like to submit my entire written testimony 
for the record and then just try to summarize in a couple of 
minutes if I could.
    I wanted to talk to you about Armenia and Israel, mostly 
about Armenia. I co-chair--I am the Democratic chair of the 
Armenia Caucus and so I come every year, as I guess you know, 
and talk in particular about aid to Armenia. Armenia has been 
regularly, until the recession, registering double-digit growth 
and consistently cited as one of the most free economies in the 
region. And our aid really is significant because Armenia 
continues to suffer a dual blockade, both from Azerbaijan and 
Turkey, which makes it more difficult for them, for their 
economy to operate.
    So I am asking that we ensure that not less than $60 
million is appropriated for Armenia in humanitarian aid for the 
next fiscal year.
    But in addition to Armenia, there is the Republic of 
Nagorno Karabakh, which I believe Mrs. Lowey has been to. I 
don't know about you, Madam Chairwoman. And you have also in 
this subcommittee provided assistance to Nagorno Karabakh, 
which is an Armenian-speaking republic right next to Armenia. 
The problem, though, is that the State Department has failed to 
follow through on congressional intent to deliver funds to 
Nagorno Karabakh. So if you look at the years from 2004 to 
2010, basically there was I think something like $46 million 
that this subcommittee appropriated or recommended in some way, 
but the State Department expended less than $13 million of that 
$46 million. So what I am asking is that the subcommittee 
direct USAID to spend not less than $10 million in 2012, 
because if it is not directed as such that they spend not less 
than that, we are going to continue to have a situation where 
you appropriate or report or recommend that this be done, and 
it is not done.
    And I think it is very important that we continue to have 
Azerbaijan violating the cease-fire agreement, firing into 
Nagorno Karabakh. And a lot of this money is in an effort to 
try to create conflict resolution. In other words, try to get 
the parties together and not be fighting each other. So I think 
that if it was actually used, it would be helpful in trying to 
reduce the conflict.
    Now the other thing I wanted to mention is that you may 
remember that after 9/11, prior to 9/11, under section 907 of 
the Freedom Support Act, no military assistance could go to 
Azerbaijan, you know, because of the blockade and other 
aggressive actions that they had taken. But after 9/11, then 
President Bush basically asked Congress to waive that and to 
provide military assistance to both Armenia and Azerbaijan on a 
parity basis, essentially to have the same, because they were 
both helpful with the 9/11 effort against Afghanistan.
    I would ask that at a minimum you continue that parity, but 
I also think it would be a good idea--and I am not going to get 
into this, you can refer to my written testimony--to try to 
narrow this waiver, because again we are seeing more and more 
aggressive actions by Azerbaijan, trying to basically eliminate 
the cease-fire; you know, firing shots. There have been 
incidents where Armenian soldiers have been killed. So if there 
was some way to narrow this, I would like to see you look into 
that. I am not going to get into all of the details of it 
today, Madam Chairwoman, but my written testimony explains 
that.
    I would ask, though, that you include $8 million in FMF and 
$2 million in IMET funding for Armenia in fiscal year 2011. 
That would be the military assistance. And certainly based on 
that parity notion, there shouldn't be more given to 
Azerbaijan. They would either get the same or they would get 
less because of their aggressive activity.
    The last thing with regard to Armenian Karabakh, if there 
was some kind of language that could be reported out of the 
subcommittee that directs the Department of State to remove any 
official or unofficial restrictions on diplomatic contact 
between the United States and Nagorno Karabakh and to support 
inclusion of Karabakh in the ongoing Minsk Process which is 
trying to resolve the conflict there.
    There was a war in the 1990s between Armenia and 
Azerbaijan. Basically, Karabakh declared its independence and 
exists as an independent state. But there is still an effort to 
try to deal with that conflict and resolve it and come up with 
a settlement. And it is very difficult. Like I personally, when 
I would go to Karabakh, the United States would discourage 
Americans or even, you know, Congressmen to go there. So we are 
trying to see if there is some way that you can include some 
report language that would basically say to the State 
Department that there shouldn't be any restrictions on 
diplomatic contact and that ultimately Karabakh should be 
included in this peace process.
    Let me just mention Israel briefly and then I will quit. I 
keep comparing Israel to New Jersey because they are about the 
same size and the same population. But as you know, Israel has 
some major threats. In 2007 we signed a memorandum of 
understanding with Israel which states that the U.S. would 
provide $30 million in security aid to Israel over 10 years. 
That was very important because of all the threats. It has 
already shown its value with the Iron Dome counterrocket 
defense system, intercepting several rockets aimed at Israeli 
civilians last week.
    So I would urge the subcommittee to approve the $3.1 
billion in military assistance for Israel in the next fiscal 
year and continue to provide other types of foreign assistance 
that encourages a strong U.S.-Israel relationship. Thank you 
very much.
    Ms. Granger. Thank you so much for being here.
    Mr. Pallone. Thank you for all your support over the years 
of both Armenia and Israel. It has been undying and it has been 
great. I do appreciate it on a bipartisan basis.
    Mrs. Lowey. And we thank you that you don't let up for one 
bit. How long have you been head of the caucus?
    Mr. Pallone. Oh, it has got to be 13 years, Nita.
    Mrs. Lowey. That was quite an experience in Nagorno 
Karabakh.
    Mr. Pallone. You were there. It was amazing.
    Mrs. Lowey. We were on a cliff. It was amazing. Thank you.
    Mr. Pallone. Take care. Nice to see you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, April 13, 2011.

                    FUNDING OF THE EAST-WEST CENTER


                                WITNESS

HON. COLLEEN HANABUSA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    HAWAII
    Ms. Granger. We will hear next from the Honorable Colleen 
Hanabusa from Hawaii. You will be recognized for 5 minutes and 
thanks for being with us.
    Ms. Hanabusa. Thank you. Thank you, Madam Chair, for this 
opportunity to testify before you in support of the funding of 
the East-West Center. The East-West Center, as you know, is 
part of the Department of State's budget, and it has been 
established by Congress for approximately 50 years. And it has 
received funding, approximately $21 million per year, and the 
President's budget, I will add, also cuts it to $10 million. 
But I would like to note that it does it every single year, and 
every single year it has always been Congress' responsibility 
to plus-up the budget.
    I also believe that what we have is a very unique 
situation. The East-West Center is really America's diplomatic 
center in the Pacific. And we all know our concerns with 
China's growing force. And China is also refocusing into a 
diplomatic kind of situation where they are recruiting into a 
policy kind of situation, not only showing its economic 
strength and its military strength. We do know China, for 
example, has increased its military budget to about 12 percent 
of their GDP now.
    But what we have with the East-West Center is history and 
the ability to counter that and to bring the Pacific area 
together. The goal of the East-West Center is to basically do 
cooperative study, training, and research, and it has done that 
successfully. When you look at just their alumni, one of my 
colleagues, freshman representative on the Republican side, is 
an alumni and that is Kevin Yoder. And he also called over 
there--because I know from the director--and said the 
experience he has had is so great that he wanted to do whatever 
he could to support it. And I hope that you will ask Kevin 
about his experience at the East-West Center as one of the many 
alumni that they have.
    You know, what we need to recognize is how critical the 
East-West Center is for not only us, but for the Pacific and 
the real extraordinary service that it does. And it only does 
it with about $21 million worth of support from the government, 
and it then goes out and gets additional funds. However, the 
$21 million is critical.
    I have talked to them. And if we end the budget at $10 
million, for example, it just couldn't operate. It represents 
about 190 of my constituents that are employed there, and they 
have had such a broad reach.
    I would like to also ask you for special attention this 
year because we are going to host APEC in Hawaii, and the APEC 
conference is critical, especially given what has gone on with 
Japan.
    We all know that Japan has been a critical ally for us. And 
when we look at what they are now enduring, what the economy 
and how their economic base with what has happened with the 
earthquake, tsunami, and now Fukushima Daiichi, the problems 
with their nuclear plant, we do know that we are all having to 
brace.
    I can tell you for the economy of Hawaii, we were on a road 
to recovery. We could see the increases. When that happened, we 
are looking at major decreases in our own economic stability 
within the State. APEC represented to us in Hawaii the ability 
to have a different kind of stability in our major industry 
which, of course, is tourism. What it would do, it would 
present Hawaii as other than an exotic destination point, one 
that really is central and one that has the knowledge and the 
ability to service the whole Pacific area.
    We have already done that with many of our Pacific 
neighbors, the insular kinds of locations, the territories. We 
have already done our part with them. But what we need to do is 
to be viewed upon as the area that the developing countries and 
the developed countries can come to for information.
    Hawaii has that opportunity with APEC. East-West Center has 
taken the lead on APEC. Secretary of State Clinton went to the 
East-West Center to announce it. She was also there to show the 
support in that. But without that additional plus-up funding, 
we will not be able to meet our obligations with the APEC.
    I have met with the military. I also sit on Armed Services, 
and I would tell you, they are not quite sure how they are 
going to be able to house 20-some-odd jets at Hickam, because 
that is the place that they are going to have to park. And the 
logistics. I mean, we have a very interesting time when the 
President comes home for Christmas, but we are going to have 
20-some-odd of the different leaders there, plus the CEOs 3 
weeks before. Hawaii is up to it, but they need East-West 
Center. Without East-West Center, we will not be able to 
accomplish that.
    So I am here to ask your consideration in not only 
maintaining that budget item, but also to plus it up to get to 
the level of about $21 million. And with that, it would have 
just rewards and benefits. And talk about getting a bang for 
your buck, you are not going to be able to get a better bang 
for your buck, especially in these difficult times, what is 
going on in the Pacific arena and in particular how we would be 
able to then assist Japan in terms of what they are dealing 
with.
    We need to basically let people's fears die down. And when 
the leaders come to Hawaii, then this whole idea of 
radioactivity and whether or not they are coming over the 
Pacific, a lot of that can be put to rest because of the fact 
that they are in Hawaii, and Hawaii is right smack in the 
middle of the Pacific, and they will know that it is safe. And 
that is a great statement for all of us to make.
    Ms. Granger. Thank you for being with us and thank you for 
your words.
    Mrs. Lowey. Madam Chair, I too would just like to thank you 
and for your persuasive arguments. I have had an opportunity to 
meet with Ms. Morrison, and have seen their programs both in 
Scarsdale and White Plains and other parts of the district. And 
they are really very impressive. They are doing an outstanding 
job, so I want to thank you.
    Ms. Hanabusa. Thank you very much. And it is only an 
additional $10 million. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, April 13, 2011.

  UNITED STATES PEACE CORPS; COLOMBIA: ECONOMIC SUPPORT FUND; WESTERN 
 HEMISPHERE: MIGRATION AND REFUGEE ASSISTANCE (MRA); MEXICO: ECONOMIC 
 SUPPORT FUNDS AND DEVELOPMENT ASSISTANCE; UNITED STATES INSTITUTE OF 
 PEACE; FEED THE FUTURE; INTERNATIONAL MILITARY EDUCATION AND TRAINING 
               (IMET); HOUSE DEMOCRACY PARTNERSHIP (HDP)


                                WITNESS

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Granger. And in closing, we are going to hear from the 
Honorable Sam Farr from California. And you will be recognized 
for 5 minutes. Good to have you here.
    Mr. Farr. Thank you very much, Madam Chair. Thank you. 
Madam Ranking Member. What a delight.
    Mrs. Lowey. Always a pleasure.
    Mr. Farr. I envy you. I always wanted to be on this 
subcommittee, but my district priorities prevailed.
    I am here to talk about three things, the most important of 
which is Peace Corps. Obviously, I am madly in love with this 
organization because I served in it. But also we have had--
probably since you have been here--a dozen Members of Congress, 
including Jim Walsh, Chris Shays, and Senator Coverdell, whom 
the Peace Corps building is named after, who have served in the 
Peace Corps. The Peace Corps is an organization which Kennedy 
envisioned would have 100,000 volunteers overseas. And guess 
what those early countries were--Iran, Afghanistan, the 
countries that if we had really flooded them with Peace Corps 
in the early 1960s, maybe we wouldn't be there with soldiers 
today.
    But what is interesting about the Peace Corps is the supply 
and demand. The supply side is Americans who want to be in the 
Peace Corps. And it has always been really high. The demand 
side is huge. The Peace Corps is in 77 countries. Over 20 more 
countries want the Peace Corps right now and still other 
countries want more Peace Corps volunteers. The only thing that 
has been standing between those who want to serve and the 
countries who want us there has been the amount of money that 
Congress has appropriated.
    I thank the Committee for your leadership because you 
brought Peace Corps funding up to $400 million in 2010. Now the 
President has asked for a $39 million increase. I know that we 
are in a cut, squeeze, and trim environment, but Peace Corps 
volunteers cost much less money than other personnel we send 
overseas if you look at the issues of sub-Sahara African 
starvation, it is not going to be solved by USAID and State 
Department alone. We need to put people on the ground who live 
at the community level, who can speak the language, and who can 
teach.
    And that is what Peace Corps does: 37 percent of Peace 
Corps volunteers are in education programs, 22 percent of them 
work in health and HIV prevention, 14 percent are in business 
development, 4 percent are in agriculture, 5 percent work on 
youth development, and 13 percent work on environmental issues.
    So I ask the committee, and I know it is tough to support 
this program. America is trying to stay ahead of the 
competitive edge and sell its ideas and the best way to do that 
is to teach people the linguistic and cultural language of the 
buyers. And the people who learn best learn these languages and 
end up in the private sector and the governmental sector are 
Peace Corps volunteers.
    In 2010, Peace Corps got 14,000 applicants who wanted to 
serve but there was only funding for 4,000 slots. That means 
that only a third of Americans who want to serve in the Peace 
Corps can. And that is a big disappointment. The $25 million 
cut in the CR could mean that Peace Corps has to scale back 
seven country programs. Just that $25 million cut. It doesn't 
seem like much money, but it has a huge impact on the ground.
    So clearly we get a great bang for our buck with the Peace 
Corps. This is also the 50th anniversary of the Peace Corps. 
And before the end of the year, Madam Chair, 6,604 Texans who 
served in the Peace Corps may end up here in DC; 383 are now 
serving in the Peace Corps, including five volunteers from your 
district who are serving in Ghana, Panama, Zambia, and 
Mozambique. And Congresswoman Lowey, you have 18 volunteers 
serving in multiple countries including Morocco, Ethiopia, 
Nicaragua, El Salvador, and Jordan. And the 12,392 New Yorkers 
who have served in the Peace Corps just might be coming down to 
DC for the 50th anniversary. So you are going to see a lot of 
Peace Corps people here in DC.
    Another program that is closely related is the civilian 
stabilization initiative. This came out of the work that I did 
on a codel to Bosnia. We had created peace there and we were 
guarding for the peace with the military. But there was no 
economic development. And what we needed was personnel that 
spoke the language and knew the area, to work on stabilization 
and reconstruction.
    That capacity wasn't there yet on the civilian side. We 
needed civilians to go do nation risk prevention. That is what 
stabilization is about: bringing in the civilian capacity to 
help stabilize fragile states. It is a relatively young 
initiative so it only got a little money. But the President has 
asked for $92 million, which is much less than what it has had 
in the past and I ask the Committee to support that.
    The other thing I would just like you to be aware of is 
conditional cash transfers. Congresswoman Lowey, I was in New 
York when Secretary Clinton entered into an agreement to look 
at conditional cash transfers which is an anti-poverty 
initiative that's been very successful in Mexico and other 
parts of Latin America. With so much poverty in Mexico, there 
was no way to have programs that just tried to overcome 
poverty. So, they gave low-income families money conditioned on 
their participation in education and health activities that 
help break the cycle of poverty.
    So it is a check with a conditionality on it. If a low-
income woman in Mexico is about to have children, she could go 
into the conditional cash transfer program they have there to 
help feed and educate her child. Or, say you are an elderly 
person in Chile. You can receive money to help you live in-home 
if you participate in activities to break the cycle of poverty. 
So there is a conditionality to getting funds.
    And Mayor Bloomberg started a privately-funded program in 
New York with families to see whether conditions/cash transfer 
could help reduce poverty and it has.
    I encourage the committee to use the development assistance 
account to Mexico in support of conditional cash transfer. 
Mexico has a 10-year-old program called Opportunidades, and it 
just seems to me that we ought to be using our limited funds to 
support proven anti-poverty programs.
    So those are my priorities. And obviously I think the 
Institute of Peace is a very important program. But Peace Corps 
is a true case of how an ounce of prevention is worth a big, 
big pound of cure. I think in some cases it can be much more 
effective than State Department and USAID.
    Ms. Granger. Thank you very much. Thanks for being with us.
    Mrs. Lowey. And thank you. And I just want to tell you, and 
I am sure my chair has had the same experiences, wherever I 
have gone I am so impressed with those Peace Corps youngsters. 
They really do more, as you were saying, to promote goodwill 
and really make a difference in attitudes.
    Mr. Farr. David Dreier just led a codel to East Timor. The 
number one request from the President of the country, the 
number one request of the Ambassador of the country and the 
head of USAID is, ``Bring Peace Corps.'' And they can't do it 
because they don't have enough money. It is about 3 million 
bucks to start a country. And the demand is in Timor and Haiti, 
and beyond.
    Ms. Granger. Thank you very much.
    Mrs. Lowey. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you to all the Members for coming today 
and for those that have submitted testimony. Your thoughts and 
comments will be valuable as we consider the fiscal year 2012. 
That concludes today's hearing. The hearing is adjourned. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 14, 2011.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

   FISCAL YEAR 2012 STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS 
                             APPROPRIATIONS

    Ms. Granger. The hearing will come to order.
    I want to welcome everyone to this subcommittee hearing on 
the fiscal year 2012 State, Foreign Operations, and Related 
Programs appropriations bill.
    Thank you to all the witnesses who come today, and we 
appreciate very much hearing from you and your being here.
    The subcommittee received over 50 requests to appear at 
this hearing, and we are hearing from 24 of them today. I wish 
to state for the record that all testimony received by the 
subcommittee will be given the same consideration.
    We must finish this hearing by 12:30 p.m. today because the 
fiscal year 2011 continuing resolution is being considered on 
the floor. So I ask all Members to limit their questions, and 
we are limiting them to 4 minutes. Because of the time, we will 
be very strict with the timing of the speeches.
    I yield first to my ranking member, who does such a 
wonderful job in such a cooperative way, for any remarks to 
precede the first witness.
    Mrs. Lowey. We have a mutual admiration society here. So I 
join my outstanding Chairwoman Granger in welcoming our 
distinguished witnesses here today.
    I thank you for coming to our subcommittee to present your 
views on the fiscal year 2012 budget request. Our public 
witnesses, along with all those submitting written testimony 
for the record, represent a broad cross-section of interests 
and collectively provide a critical commentary for the 
subcommittee to consider.
    The President has requested $50.693 billion for the State 
Department, Foreign Operations, and Related Agencies budget for 
fiscal year 2012. In my judgment, this represents a balanced 
approach to protecting our national security interests, 
promoting the global economy, and maintaining U.S. global 
leadership during this time of fiscal belt-tightening. And I 
look forward to hearing from the witnesses today about the 
important work that you all do and the impact of foreign 
assistance programs throughout the world.
    And I yield.
    Ms. Granger. Thank you.
    We will now hear from the Honorable Dan Glickman, chairman 
of the board, and Ambassador Mark Green, senior director, of 
the U.S. Global Leadership Coalition.
                                          Thursday, April 14, 2011.

                    U.S. GLOBAL LEADERSHIP COALITION

                               WITNESSES

HON. DAN GLICKMAN, CHAIRMAN OF THE BOARD AND AMBASSADOR MARK GREEN, 
    SENIOR DIRECTOR OF THE U.S. GLOBAL LEADERSHIP COALITION
    Mr. Green. Chairwoman Granger, Ranking Member Lowey, and 
Members of the subcommittee, it is an honor to appear before 
you today to discuss the 2012 international affairs budget.
    We represent the U.S. Global Leadership Coalition, a 
strange bedfellows coalition comprised of businesses like 
Boeing, Caterpillar, and Wal-Mart, and leading humanitarian 
NGOs like CARE, Catholic Relief Services, and World Vision. 
USGLC brings together Republicans and Democrats, national 
security and foreign policy experts, and business, faith-based, 
and community leaders all across the country, who are united in 
their support of a strong, smart power funding.
    In recent months, the Obama administration has used the 
phrase ``winning the future'' to describe its governing 
platform. Republicans have coined the phrase ``path to 
prosperity'' to describe their vision and plan. Well, 
regardless of which term you prefer, we strongly believe that 
the international affairs budget should be viewed as an 
essential part of a brighter future for Americans.
    Now we recognize certainly the fiscal challenges our Nation 
is facing, and as former lawmakers ourselves, we know you have 
tough choices before you. Every agency will need to tighten its 
belt. However, for the reasons we will discuss, we urge you to 
do everything you can to oppose deep and disproportionate cuts 
to these tools of diplomacy and development so they can remain 
strong and productive.
    Now we believe the international affairs budget requires 
strong funding because, quite simply, it is an essential part 
of our national security. First, in the immediate sense, we 
must have robust smart power resources to hasten the day when 
our military men and women can return home from conflict zones.
    This summer, as you know, we will begin the transfer of our 
mission in Iraq from military to civilian leadership. Deep cuts 
in our civilian funding could jeopardize those gains that we 
have made. Now on this count, you don't have to take our word 
for it. General Petraeus recently testified that he needs 
strong civilian partners in Afghanistan because, in his words, 
it is ``a comprehensive civil-military counterinsurgency 
campaign.''
    General Petraeus is hardly alone in his conclusion. Last 
year, Joint Chiefs Chairman Mike Mullen sent a letter to 
Congress in support of international affairs funding with a 
handwritten note at the bottom, saying starkly, ``The more 
significant the cuts, the longer military operations will take 
and the more and more lives are at risk.''
    Maintaining robust smart power not only complements strong 
defense, or hard power, it enhances our national security by 
preventing conflicts before they require costly military 
action. As former Secretary of State Condoleezza Rice has said, 
``We must now use our foreign assistance to help prevent future 
Afghanistans and to make America safer and the world safer.''
    But it is not just in the frontline states where these 
programs do so much to keep America safe. Around the world, 
well-designed development and diplomacy programs are critical 
in helping partner nations build stronger institutions and 
greater capacity to address the conditions that can lead to 
despair and instability.
    As our first Secretary of Homeland Security, Tom Ridge, has 
said, again quoting, ``The programs supported by the 
international affairs budget are as essential to our national 
security as defense programs. Development and diplomacy protect 
our Nation by addressing the root causes of terrorism and 
conflict.''
    In 2007, the Bush administration began including the 
international affairs budget as part of a national security 
funding request in its annual budget. The Obama administration 
has continued this practice, as have your colleagues in the 
Senate and even the bipartisan deficit reduction commission.
    We urge the House to continue this bipartisan legacy 
because America's strength is maximized when all of its foreign 
policy tools, military and civilian, are strong.
    Mr. Glickman. Thank you.
    Madam Chairman and Congresswoman Lowey, I would make an 
additional few comments. I sat in this room probably over 100 
times when I was Secretary of Agriculture. And I look at the 
wall, and I see how the U.S. is involved in the rest of the 
world, the food aid that we have given, which is funded in part 
in your budget, and all the agricultural programs that tie this 
world together.
    And the significance as the impact of economic issues and 
creating jobs and spurring the economic growth here in the 
United States as part of this foreign assistance program, in 
addition to humanitarian reasons why we do this as well. The 
Chamber of Commerce has said in its recent letter to Congress 
these exact words in urging opposition to deep cuts.
    So economic development programs foster innovation in the 
rest of the world where it will mean more jobs, more trade with 
the United States. More than one out of five American jobs are 
tied to international trade, and this share is growing as well.
    I just came back from Mozambique and Tanzania. And of 
course, my good friend Mark Green was the Ambassador to 
Tanzania. And here we have a Republican and a Democratic Member 
that may not have agreed on every issue in the world, but we do 
agree here that America's role in the world requires 
engagement.
    And during my visit to Tanzania, I recall one government 
official saying to me how proud he was the last three American 
Presidents--Clinton, Bush, and Obama--were engaged in Africa to 
help rebuild that country. And almost a third of all members of 
the U.N. General Assembly are from Africa.
    And obviously, Africa is not the only place where we are 
engaging in this budget. But it is an important part of the 
world and one that has deep ties to the United States and one 
where the economics of international trade and development will 
continue to grow.
    Mr. Green. During these tight fiscal times, we believe that 
the international affairs budget programs must be accountable, 
transparent, and results driven. I think the good news is, the 
news that gets underreported is that diplomacy and development 
leaders have been taking concrete reform steps over the last 
several years.
    President Bush's establishment of the Millennium Challenge 
Corporation, Secretary Rice's establishment of transformational 
diplomacy certainly enhanced the strategic focus of our 
programs. Secretary Clinton expanded on these efforts, in part 
through the recently completed QDDR.
    And at USAID, they are beginning a monumental effort to 
better monitor and evaluate all of USAID's programs and to even 
allow the American people to see precisely where Federal 
dollars are being spent with a very innovative foreign 
assistance dashboard.
    With these reforms, we are seeing good things happening and 
good plans ahead for greater effectiveness and efficiency than 
ever before. We think it is vital that there is sufficient 
funding and personnel to see these reforms through so they can 
bear fruit.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We appreciate both of you coming here and 
certainly both of your experience and service to the country.
    And I know I speak for Mrs. Lowey because we have talked 
about it so many times how important what you are doing, and 
the others that we will hear from today also are important. And 
that you did cite some of our strongest military leaders saying 
that this is part of our national security, and that is 
certainly the way we view it.
    So thank you very much. Thank you for being here.
    Mrs. Lowey. I just want to agree with my chair and thank 
you for your eloquence. I hope you can use that eloquence to 
explain it to the constituents throughout the country because, 
as you well know, they don't believe that our foreign aid 
program is 1 percent of the budget, and they still all believe 
it is more than 25 percent.
    So I just want to thank you for making the case so 
effectively, as did both Republican and Democratic Presidents 
and, as you heard, from our military. So thank you, and I hope 
you will continue to make the case throughout the country.
    Mr. Glickman. Thank you very much.
    Mr. Green. Thank you. Appreciate it.
    Ms. Granger. We will now hear from Dr. Richard Solomon, 
president of the United States Institute of Peace.
                              ----------                              

                                          Thursday, April 14, 2011.

                    UNITED STATES INSTITUTE OF PEACE


                                WITNESS

RICHARD H. SOLOMON, PRESIDENT OF THE UNITED STATES INSTITUTE OF PEACE
    Mr. Solomon. Good morning.
    Chairwoman Granger, Ranking Member Lowey, other Members of 
the committee, I want to thank you for this opportunity to 
speak in support of the President's request for the U.S. 
Institute of Peace for fiscal year 2012. And we appreciate the 
subcommittee's long support, longstanding support for our work.
    We are living in times of profound change in the 
international system, as you all well know. America faces 
daunting threats to our political interests abroad, to our 
economic well-being, and our national security. These 
challenges only begin with the wars that we are currently 
fighting.
    And it is in this context that the Institute of Peace has 
come to play a significant role in our country's national 
security affairs. Our staff is on the ground in zones of 
conflict--Iraq, Afghanistan, and Sudan, just to name three--and 
their work is saving lives and money.
    The conflict management techniques that we have developed 
are helping our Government adapt to these new challenges in a 
cost-effective way. We clearly understand the importance of 
getting our national budget deficit under control and, thus, 
our fiscal year 2012 request, as was the case with 2011, is a 
substantial decrease from our 2010 appropriation.
    The institute's work does not duplicate the activities of 
State and Defense. These agencies have repeatedly called on the 
Institute of Peace for support where our mission brings special 
skills that help them advance their mission. Secretary of State 
Clinton recently stated to this subcommittee that the institute 
was, and I quote, ``formed by Congress to operationalize 
America's commitment to peace.''
    Our programs bridge the divide between the Government's 
civilian and military agencies. We have developed the doctrine 
that is helping these agencies deal with the transitions from 
war to peace in Iraq and Afghanistan, and this doctrine, even 
as we speak, is helping our Government prepare for stabilizing 
the current situation in Libya.
    Under Secretary of Defense Flournoy recently wrote to 
congressional leaders that the institute, and I quote, ``serves 
a critical function that is not elsewhere available in the 
Department of Defense or in other departments and agencies of 
the U.S. Government, and its work pays national security 
dividends far greater than the sums required to fund it.''
    The Institute of Peace is not a think tank. Unlike a think 
tank, our work is very operational. Our staff are on the ground 
and at risk in multiple conflict areas around the world, and we 
train U.S. civilian and military personnel who are deployed to 
these conflict areas. Our efforts save lives, and they save 
money.
    For example, our work on electoral violence prevention in 
Sudan just prior to the January referendum helped divert a 
civil war there. In Iraq, USIP negotiators mediated an 
agreement between warring parties in the Iraqi district known 
as ``the triangle of death.'' The agreement that we helped 
broker led to a reduction in U.S. troop fatalities from what 
had been up to 12 per month down to zero and allowed the U.S. 
Army to redeploy two battalions, thus saving the taxpayers $2.2 
billion per year in their activities in that area alone.
    Finally, when Congress created the institute, it did not 
want our work to be influenced by the agendas of private 
individuals or organizations or by foreign money. Thus, 
Congress restricted the funding of our programmatic work to 
congressionally appropriated resources only.
    Our effectiveness as a center of innovation in 
international conflict management is critically based on our 
funding as a Federal entity. Our agenda is the Nation's agenda, 
and our work is subject to oversight by Congress and by our 
Senate-confirmed bipartisan board of directors.
    In conclusion, I believe that our work warrants a level of 
congressional funding that will enable us to continue saving 
lives and money for our country, as we confront a very 
challenging international environment.
    And I ask that a letter from a number of former top 
American ambassadors in support of our work be included in this 
record.
    Ms. Granger. Thank you. They certainly will be.
    Mr. Solomon. I look forward to any questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you. And thank you, Dr. Solomon, for 
being here again.
    And we are talking about confusion about this budget, there 
was also some confusion about the Institute of Peace. And 
because you are so eloquent and detail it so well, then I think 
that has been overcome by some Members that perhaps weren't 
familiar with what you do.
    Thank you.
    Mr. Solomon. Thank you very much.
    Mrs. Lowey. Thank you.
    Ms. Granger. Next we will now hear from Ambassador Michael 
Klosson, vice president of Save the Children.
                              ----------                              

                                          Thursday, April 14, 2011.

                           SAVE THE CHILDREN


                                WITNESS

AMBASSADOR MICHAEL KLOSSON, VICE PRESIDENT OF SAVE THE CHILDREN
    Mr. Klosson. Madam Chairwoman and Mrs. Lowey, thank you for 
the opportunity to underscore the vital importance of American 
leadership around the world in alleviating suffering and 
helping the poor help themselves out of poverty.
    We recognize the key role the subcommittee plays and the 
support that it has demonstrated in ensuring that leadership 
remains as robust as possible, and I appreciate you have hard 
choices to make to stay that course.
    Strong leadership is important across the wide range of 
U.S. development engagement, but nowhere more so than 
vulnerable children. Children, after all, represent the 
greatest potential of society, but they also face the greatest 
risks.
    In the brief time I have to elaborate on my written 
testimony, stronger leadership by the U.S. could have saved 60 
children who will die during the next 4 minutes due to 
preventable causes. Sixty in 4 minutes, that is 8 million lives 
a year that could be saved by greater effort, which is 
represented in the President's budget request.
    U.S. programs in this area, emblematic, I think, of our 
overall assistance effort, are making a difference. We see 
significant reductions in child mortality in countries with 
USAID-assisted programs. Such programs not only save lives. 
They also build local capacity, empower women, and provide hope 
for communities.
    And take, for example, the USAID initiative for community 
midwife education in Afghanistan. Save the Children, along with 
other agencies, is implementing the program. But the success is 
largely the success of our Afghan partners.
    It was not easy to recruit the first class of students in 
2004. After all, these young women needed support from their 
husbands or their fathers to travel to a distant town for an 
18-month residential program. But when it came time for the 
first graduation, their extended family showed up in force to 
celebrate their daughters', their wives', their sisters' 
newfound status as healthcare professionals.
    Our country director told me that the graduation was all 
about hope for a better future, and when it came time to 
recruit the second class, word had spread. Fathers and husbands 
were lining up, even holding parades to promote the selection 
of their wife or daughter. Graduating classes are now hard at 
work saving lives.
    I think that is impact for taxpayer dollars. That is how 
lives are saved, but it is also how we advance our broader 
national interests and resilient and stable societies, one 
community at a time.
    Our investment in child survival, indeed, our investment in 
foreign assistance programs is the right thing to do. Even in 
times of fiscal austerity, it is also the smart thing to do. I 
think declining health indicators, for example, pose a 
significant security risk on regional and global levels, says 
the Government's worldwide threat assessment. And development 
advances our long-term economic interests by growing new 
markets.
    Some believe that Americans don't care about this 
leadership. I think polls show that they do, especially for 
programs that help children. And here is an example from a 
young girl who participated in our Advocacy Day program. She 
was born premature and spent her first months in a hospital and 
survived in part thanks to Kangaroo Care.
    This is what she told us, and let me quote. ``I started 
knitting when I was 10. I knitted one cap for every day I was 
in the hospital. What I wanted to say was thank you to Harris 
Hospital, who saved my life 16 years ago. Now I work with 
seniors, and we make caps to help keep preemies warm. We are up 
to 9 hospitals in Texas, and we have collected 1,600 caps for 
moms learning Kangaroo Care in Guatemala, Vietnam, and Ethiopia 
with Save the Children.
    ``I feel like I wouldn't be here if I hadn't benefited from 
what they are advocating. So I went to their Advocacy Day in 
Washington, and I got to tell Members of Congress my story. 
They looked shocked that I survived what I did. I told them 
that is a chance we can give more babies around the world.
    ``I am really glad I did this. I am still jumping up and 
down.''
    Now I am not jumping up and down, but let me wrap up my 
remarks by urging you to support the President's fiscal year 
2012 request to invest the resources necessary for America to 
lead and certainly to avoid disproportionate cuts. I think the 
budget cannot and should not be balanced on the back of 
children and poor people. The stakes are too great for us and 
for them.
    Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you for being with us, and thank you for 
that beautiful story.
    Mrs. Lowey. And please give my best to Charlie MacCormack.
    Ms. Granger. We will now hear from Ms. Mary McQueen, 
president of the National Center for State Courts, on behalf of 
Justice Wallace Jefferson. You are recognized for 4 minutes.
                              ----------                              

                                          Thursday, April 14, 2011.

                    NATIONAL CENTER FOR STATE COURTS


                                WITNESS

MARY McQUEEN, PRESIDENT OF THE NATIONAL CENTER FOR STATE COURTS, ON 
    BEHALF OF JUSTICE WALLACE JEFFERSON
    Ms. McQueen. Thank you, Madam Chairwoman.
    And greetings from Wallace Jefferson. He apologized that 
court kept him in Austin today.
    And Representative Lowey, greetings from Chief Judge 
Jonathan Lippman as well.
    The National Center for State Courts and our partner, the 
Conference of Chief Justices, have been approached over the 
last 30 years by USAID and the State Department to help develop 
the rule of law and strong judiciaries across the global 
spectrum. We have worked in all different areas around the 
country, and Chief Justice Jefferson most recently is scheduled 
to go to South Africa, where we have been asked to establish a 
program for violence against women, working to help the court 
system there and training lawyers on how to support rights for 
women and prevent sexual violence.
    For over 40 years, we have been working in the justice 
sector because we certainly believe that sustainability is key 
to the United States foreign relation efforts. And as George 
Washington quoted once, it is one of the essential foundations 
of a democracy is the effective administration of justice. 
Whether it is ensuring that children are given equal rights and 
access to healthcare, whether it is women's rights, whether it 
is a sustainable economy, we need to ensure that there are 
strong court systems that are transparent, that support equal 
opportunity and access, that are predictable.
    Charles Matthews from Exxon Mobil is chair of our general 
counsel committee, and in order for us to be able to invest 
economically to develop jobs for the U.S. citizens, we have to 
have foreign court systems that are predictable, that are 
transparent, and that are sustainable.
    I just want to briefly tell you a short story. We are 
currently working in Iraq for the State Department to assess 
the court system there. And I had the opportunity, along with 
Chief Justice Jefferson, to meet the chief justice of Iraq.
    When he met with us, we were talking about some of the 
challenges that court systems in the United States as well as 
around the world face. But Chief Justice Mahmood has faced it 
in a way that I hope none of us will be asked to. His son was 
assassinated by terrorists who disagreed with an opinion of 
that court that was based on the new constitution.
    And at that time, he went to the State Department and said 
can you help us assess our system to tell us what are the 
constitutional as well as legislative enactments that we need 
to adopt to ensure that this type of reaction doesn't happen?
    We also are training the first women judges in Egypt. And I 
have to say that even during the recent conflict, we were able 
to communicate with them, and they have asked us to help them 
with a public trust and confidence effort in the public schools 
there.
    And then, most recently, we just completed a project in 
Lebanon, where part of it was the creation of a performance 
dashboard that we use here in the United States, that we have 
expanded now internationally to help evaluate transparency and 
access and timeliness because we know that the public's trust 
in the court system is basically transferrable to their trust 
and confidence in their government.
    And so, finally, I would like to end with just a quick 
story about a trial court judge in Iraq. When we were asked to 
come in and establish model courts throughout Iraq, he was very 
skeptical because he said that he had seen other NGOs, not just 
from the U.S., come in, spend a year or two, and then leave. 
And I have to say when we opened the model court there, I was 
privileged to actually attend that ceremony with the 
Ambassador, and he basically was in tears because he said he 
could not believe the change that this had made in the public's 
trust and confidence in the courts and their hope for democracy 
in the future.
    So thank you very much. We encourage you to do whatever you 
can to preserve the appropriation, and I will pass along to the 
chief justices that in their ``state of the state courts" 
address they include the importance of these international 
projects in their comments.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you very much. Thanks for being with us.
    We will now hear from Dr. David Arnold, president of the 
Asia Foundation, and you will be recognized for 4 minutes.
                              ----------                              

                                          Thursday, April 14, 2011.

                            ASIA FOUNDATION


                                WITNESS

DAVID ARNOLD, PRESIDENT OF THE ASIA FOUNDATION
    Mr. Arnold. Good morning, Madam Chairwoman, Ranking 
Minority Member Mrs. Lowey, Members of the subcommittee. Thank 
you so much for the opportunity to testify this morning as the 
new president of the Asia Foundation, an organization I have 
known and admired for many, many years.
    First, I want to thank this committee for its longstanding 
support for the work of the foundation. We fully understand the 
pressures that this committee faces and the Congress faces in 
the current budgetary environment, and we are prepared to meet 
the challenges that are posed to us by the fiscal year 2011 
cuts.
    But I am here really to share with you the fact that 
further cuts would really threaten the core of the foundation's 
longstanding field programs throughout Asia that have been so 
highly valued by the U.S. Government and by Congress over the 
years.
    As you know, the Asia Foundation is a private nonprofit 
organization. We are fundamentally about the promotion of good 
governance, the strengthening of democratic institutions, and 
the development of a robust civil society in the Asian 
countries in which we work. We also work to identify and 
support emerging leaders and reform-minded individuals in a 
variety of different fields and sectors.
    We have maintained an on-the-ground presence in Asia for 
more than five decades now. Through our 18 country offices, we 
work with hundreds of Asian partner organizations in both the 
governmental and private sectors. In fact, our Asia Foundation 
grantees can be found across a wide range of fields and are 
really helping to build an increasingly diverse civil society.
    The Asia Foundation's core programs focus on democracy, 
human rights and the rule of law, economic reform, women's 
empowerment, regional peace and security, and most recently, we 
have begun to work in the field of environment and sustainable 
development.
    You may know of our well-developed Books for Asia program, 
which over the years has provided more than 40 million English 
language books to school libraries, to universities in more 
than 20 countries. And last year, we distributed more than 1 
million books in 2010 alone.
    Our deep experience, our country-specific expertise in 
Asia, and our long-term commitment to the region distinguishes 
the work of the foundation from that of many other 
nongovernmental organizations. In fact, the foundation is often 
called upon by the U.S. and by host governments to undertake 
critical, but sensitive tasks that really can only be pursued 
by a private organization that has the trust and confidence of 
our partners working in sensitive areas such as democracy 
building or working to help resolve conflict situations in 
specific settings.
    The Asia Foundation is requesting $19 million for fiscal 
year 2012, which represents the same level of funding that we 
have had in fiscal year 2010. It is worth pointing out that if 
the foundation's funding had kept pace at the inflation-
adjusted level, we would be now more than $23 million in terms 
of our operations.
    I want to emphasize the fact that under the leadership of 
my predecessor, Congressman Doug Bereuter, the foundation was 
very, very cost effective and successful in raising private 
support and support from other multilateral donors and 
bilateral donors, including the development assistance agencies 
from Britain, Australia, the European Union, World Bank, and 
others. So that for every dollar of our congressional 
appropriation, we have been successful in raising $4 in private 
and other donor support. So this is a very cost-effective, 
high-impact investment.
    In conclusion, I want to thank the committee for its past 
support and encourage you to do everything you can in the 
current difficult and challenging environment to sustain the 
support and the commitment that you have demonstrated to the 
work of the foundation over these past five decades.
    Thank you so much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Granger. Thank you very much, and thanks for being with 
us.
    We will now hear from Ms. Kelly Keenan Aylward, Washington 
office director, on behalf of John Calvelli, executive vice 
president of public affairs of the Wildlife Conservation 
Society. And you will be recognized for 4 minutes.
    Thank you.
                              ----------                              

                                          Thursday, April 14, 2011.

          PUBLIC AFFAIRS OF THE WILDLIFE CONSERVATION SOCIETY


                                WITNESS

KELLY KEENAN AYLWARD, WASHINGTON OFFICE DIRECTOR, ON BEHALF OF JOHN F. 
    CALVELLI, EXECUTIVE VICE PRESIDENT OF PUBLIC AFFAIRS OF THE 
    WILDLIFE CONSERVATION SOCIETY
    Ms. Aylward. Thank you, Chairwoman Granger and Ranking 
Member Lowey.
    Greetings from John Calvelli. He apologizes for not being 
able to join us here today. He is our executive vice president 
for public affairs.
    Thank you for the opportunity to testify. My name is Kelly 
Keenan Aylward. I am the Washington office director of the 
Wildlife Conservation Society, which was founded in 1895 with 
the mission of saving wildlife and wild places around the 
globe. WCS field work helps address over 25 percent of the 
Earth's biodiversity in over 60 countries around the world and 
is a key implementing partner for the U.S. Government.
    First, I wanted to take the opportunity to thank the panel 
for their admirable collaborative working relationship in 
developing the Federal budget over the years. Today, I will 
describe how international conservation is vital to national 
security and helps achieve our foreign policy objectives, as 
outlined by Ambassador Green and Dan Glickman earlier this 
morning.
    International conservation makes a direct contribution to 
our national security. In Afghanistan and Pakistan, where WCS 
is the only U.S.-based conservation organization at work, 
environmental degradation has devastated the region's 
inhabitants. Reversing these destructive trends is key to good 
governance and capacity building, which will lead to stability 
and economic growth.
    This is also a goal in the new state of Southern Sudan, 
where WCS is working with the government to strengthen natural 
resource management as a foundation for economic growth in the 
tourism sector through national park building.
    In Central Africa, despite a long history of conflicts, six 
nations have been brought together to save the world's gorillas 
and elephants, to promote sustainable development, and to 
establish transboundary national parks through the Central 
African Regional Program for the Environment, also known as 
CARPE.
    USAID's biodiversity conservation program helps protect 
some of the largest and most at risk natural landscapes while 
boosting economic security, regional stability, and human 
health. Over 80 percent of the armed conflicts in the past 50 
years occurred in places that contain a high percentage of the 
world's wildlife and plant species.
    As you have hard choices to make in the fiscal year 2012 
budget, WCS requests that the USAID biodiversity line item be 
restored and funding maintained at the fiscal year 2010 enacted 
levels of $205 million, of which $23 million is requested for 
CARPE, $20 million for the Andean Amazon conservation 
initiative, $2 million for the Guatemala Maya biosphere 
reserve, and $5 million for wildlife conservation in Southern 
Sudan.
    WCS also supports the administration's fiscal year 2012 
request of $421 million to protect tropical forests from 
deforestation and degradation, as well as $256 million for 
international adaptation. Forests and natural ecosystems are 
essential for capturing rainfall and drinking water and 
preventing catastrophic flooding and soil erosion.
    While conservation and programs to combat climate change 
have shared benefits, it is important that funding for these 
two efforts remain separate and robust. As such, funding for 
biodiversity should not be reduced as a result of increased 
funding for tropical forests and adaptation assistance.
    I conclude my testimony today with an example of how on-
the-ground conservation programs can be used to accomplish U.S. 
foreign policy objectives around food security, economic 
growth, and the empowerment of women. WCS created a 
conservation farming cooperative in Zambia, which helped 
transform farming households that couldn't feed themselves year 
round to agricultural producers that generate surplus crops 
sold in the capital city.
    Household incomes have grown from $35 in 2001 to $149 in 
2008. Households, typically headed up by women, have been 
empowered to adopt new trades in organic farming, bee keeping, 
gardening, and products marketed under the label "It's Wild," 
which is an eco-friendly product, rather than engaging in 
illegal logging and poaching in the neighboring game reserve.
    All of this was accomplished by simply offering surplus 
grains and agricultural extension services in exchange for the 
surrendering of hunting rifles and snares. And WCS scientists 
report that populations of elephants and hoof stock in these 
neighboring wildlife preserves are increasing, allowing for the 
growth in the tourism sector in these game reserves.
    Good natural resource management has the ability to 
stabilize communities, open up foreign markets for U.S. 
companies, and directly impact the growth of the U.S. economy.
    Thank you for the opportunity to testify today.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Granger. Thank you very much.
    Mrs. Lowey. Thank you.
    Ms. Granger. We will now hear from Mr. Howard Kohr, 
executive director of AIPAC, and you are recognized for 4 
minutes.
                              ----------                              
                                          Thursday, April 14, 2011.

                                 AIPAC


                                WITNESS

HOWARD KOHR, EXECUTIVE DIRECTOR OF AIPAC
    Mr. Kohr. Good morning. It is an honor again to appear 
before this subcommittee and before such important leaders and 
strong friends in this relationship as Chairwoman Granger and 
Ranking Member Lowey and the Members of this subcommittee.
    I am joined here today by two of my colleagues, Esther Kurz 
and Jessica Schwartz here, who continue to do work every day on 
working with your staffs on this issue and with the Members as 
well. I just want them recognized.
    I am here today on behalf of AIPAC to strongly urge the 
subcommittee to approve the President's request for fiscal year 
2012 security assistance to Israel in the amount of $3.075 
billion, as called for in the President's budget and in the 
2007 Memorandum of Understanding between the United States and 
Israel.
    We also support approval of this aid, in accordance with 
the legislative mandated terms under which it has historically 
been provided, particularly provisions mandating the level of 
assistance, offshore procurement, and early disbursal. I am 
also here today to lend our support to an overall vibrant, 
robust foreign aid bill, which we believe is a critical tool to 
American national security.
    We are meeting here this morning at a time of unprecedented 
changes taking place in the Middle East. Those changes have 
created both turmoil, opportunity, and danger for both the 
United States and Israel. And in this time of turmoil, we 
believe it is an important reminder that there is one reliable, 
stable, pro-American, capable ally, and that is Israel.
    Israel today faces unprecedented dangers in the region, not 
only from this turmoil, which causes it now to actually raise 
questions about the security architecture that has been in 
place for almost 30 years, but it is also an opportunity to 
remind the role that Iran continues to play in the region to 
not only threaten Israel, but also other allies in the region, 
fomenting trouble as well as their quest for nuclear weapons 
and the danger that that poses to American interests in the 
region.
    It is an important reminder this aid is vital to the United 
States as well as to Israel because at a time of instability, 
it is an important reminder that there is one ally prepared to 
stand with the United States in this very volatile and 
dangerous part of the world.
    So we thank you for this opportunity to be here this 
morning and the opportunity to testify on behalf of this aid.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you very much, and I appreciate your 
being here. I know that certainly the subcommittee does, too. 
We will keep your thoughts in mind.
    Mr. Kohr. Thank you.
    Mrs. Lowey. Thank you.
    Ms. Granger. We will now hear from Ms. Carol Bellamy, chair 
of Education for All--Fast Track Initiative. You are recognized 
for 4 minutes.
                              ----------                              --
--------

                                          Thursday, April 14, 2011.

                         FAST TRACK INITIATIVE


                                WITNESS

CAROL BELLAMY, CHAIR OF EDUCATION FOR ALL--FAST TRACK INITIATIVE
    Ms. Bellamy. Madam Chair, Congresswoman Lowey, Honorable 
Members, while there are many reasons, this morning I want to 
present two solid arguments for investing in education 
globally.
    First, investing in education is the most effective way to 
reduce poverty. And second, investing in Education for All--
Fast Track Initiative, or in short, FTI, really works.
    How does education reduce poverty? I believe that a decent 
education for every child is the tipping point for lasting 
social and economic development. The statistics confirm it. Put 
simply, each year of schooling you have translates into a 10 
percent increase in your potential income.
    Take this up a notch to the national level. Each year of 
additional schooling boosts annual GDP by 1 percent. Take it up 
one more notch to the regional level--for example, in sub-
Saharan Africa--investing in the education of girls in 
particular could boost agricultural output by 25 percent.
    The economic arguments alone should be enough, but the 
impact of education goes beyond money. Education saves lives. 
In Africa today, children of mothers with a full primary 
education, just a primary education, are 40 percent less likely 
to die before the age of 5 than those whose mothers have had no 
education at all.
    So where does the world stand on this poverty-reducing, 
lifesaving phenomena? World leaders pledge support to the 
Millennium Development goals and the Education for All goals, 
aiming for universal access to primary education by 2015. But a 
global report card on education would read ``tries hard, but 
must try harder.''
    The number of primary school-age children out of school has 
fallen from over 100 million to around 70 million, slightly 
less since 2000. So, indeed, there has been progress. But 
having about 70 million children out of school is simply 
unacceptable. It is more than the entire population of France.
    And school dropout is eroding the progress made on 
enrollment. So, yes, there are more children in the classroom. 
But we are having trouble keeping them there. It is time to 
look beyond the sheer numbers to the quality of education.
    Which brings me to my second argument. Investing in the FTI 
really works. FTI's partnership of donors, developing 
countries, multilaterals, the private sector, and civil society 
created in 2002 has allocated $2.2 billion to national 
education plans in 44 developing countries. Our newest partner, 
Afghanistan, joined just a month ago.
    In short, the FTI gets children into school, and it keeps 
them there. We see enrollment rates in FTI countries that are 
twice as high as in the non-FTI countries. We have also seen 
the average rate of primary school completion in FTI countries 
increase from 60 percent in 2002 to over 72 percent in 2009.
    In exchange for FTI technical assistance and funds, partner 
developing countries commit their own resources with many 
increasing their spending on primary education at a rate that 
far exceeds their economic growth. FTI is a cost-effective way 
to deliver aid to education without expanding bilateral aid.
    FTI support goes through donor agencies with the lowest 
unit cost and the greatest comparative advantage in each 
country to ensure impact. FTI has been cited by the G-8 as a 
model of aid effectiveness and by the recent United Kingdom's 
multilateral aid review, which cited the FTI as one of 16 
organizations offering good value for money for British aid.
    This year, we need to replenish our funds. So why should 
the U.S. in particular get onboard? Because U.S. funding will 
set the benchmark for other donors who still very much look to 
the U.S. to take a lead. Because it would help us make the best 
possible use of a challenge grant of more than $160 million 
from the United Kingdom. And because fully meeting this 
challenge with the U.S. support would send around 8 million 
children to school for a year or build more than 70,000 
classrooms or buy half a billion textbooks.
    I can think of no better way to invest U.S. resources, and 
it is my fervent hope you agree.
    [The information follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you very much, Ms. Bellamy. We 
appreciate your being here.
    Mrs. Lowey. Thank you.
    Ms. Granger. We will now hear from Mr. Jim Doumas, 
executive vice president and interim CEO of Sister Cities 
International.
                              ----------                              
                                          Thursday, April 14, 2011.

                             SISTER CITIES


                                WITNESS

JIM DOUMAS, EXECUTIVE VICE PRESIDENT AND INTERIM CEO OF SISTER CITIES
    Mr. Doumas. Chairwoman Granger, Representative Lowey, 
Members of the subcommittee, thank you so much for allowing me 
an opportunity.
    On behalf of Sister Cities International, I appreciate the 
chance to submit testimony in support of funding the 
administration's fiscal year 2012 budget request for 
educational and cultural exchange programs that are 
administered by the Department of State's Bureau of Educational 
and Cultural Affairs, ECA.
    Sister Cities International, also known as SCI, is a 
nonprofit citizen diplomacy network that creates and 
strengthens partnerships between U.S. and international 
communities at the local level. SCI currently represents more 
than 600 U.S. communities with over 2,000 international 
partnerships in 136 countries.
    For 55 years, SCI has facilitated partnerships between 
communities to build global cooperation at the municipal level. 
The economic benefit to a community can amount to millions of 
dollars each year in sustained business activity due to these 
partnerships.
    Created by President Eisenhower in 1956, our network has 
long been recognized as a vital part of U.S. foreign policy, 
and it has historically had bipartisan support. Continued 
funding would allow for potential and new programming in the 
U.S. Department of State's exchange division that are vital to 
our country's efforts to build mutual understanding and respect 
between the U.S. and nations around the world.
    Much of the work in this area is conducted by U.S. citizens 
and their international counterparts on a voluntary basis. It 
is important to note that these State Department funds act as a 
catalyst. They leverage significantly more funding and 
resources at the national and local community level in the U.S. 
and abroad.
    At a vital moment in time, when we are witnessing major 
political changes in areas around the world that are so 
important to the United States, Sister Cities International 
provides an effective avenue for communication, support, 
diplomacy, and humanitarian disaster relief.
    SCI has partnerships in Iran, Iraq, Afghanistan, and in the 
Palestinian territories. It has 169 partnerships with cities in 
China, 77 in the Russian Federation. Many of the partnerships 
in the Middle East have been formed since the attacks on 9/11 
and some by U.S. soldiers who serve there.
    The economic return on investment of SCI's international 
exchange programs can sometimes be unrealized. International 
exchange represents .018 percent of the Federal budget but can 
boost local industry and development, build avenues for trade 
and company expansion, and develop the personal relationships 
that open doors for private sector investment.
    For example, in a commissioned independent study, Fort 
Worth Sister Cities was found to have supported approximately 
50 jobs and a payroll of $1.8 million through their Sister 
Cities programming. All the activities represented an impact of 
$1.6 million for the greater Fort Worth community and $4.9 
million over a 3-year period.
    We have other examples. Louisville Sister Cities generating 
$20 million in public-private partnerships with Tamale, Ghana. 
Tacoma Sister Cities generating $2.4 million through a Sister 
Ports program in Shanghai. Phoenix, Arizona, generating $268.7 
million through a Sister Cities program supporting 950 jobs in 
2009 alone.
    The value of the program can be seen in the response to the 
recent devastation in Japan. The Sister Cities relationships 
between Riverside, California, and Sendai, Japan, is one of the 
oldest in the country. The Sister Cities of Riverside raised 
nearly $335,000 that is going directly to their local contacts 
in Sendai, and the situation is reciprocal.
    When Hurricane Katrina devastated New Orleans, the Japanese 
city of Matsue City, Japan, raised a phenomenal $40 million 
through its network to help their partners and continue to do 
so long after the media attention on New Orleans was gone.
    SCI relies on an almost even distribution of Federal and 
local municipal dollars to continue to operate. Over the past 
decade, the support by this subcommittee for the work of SCI 
members has allowed hundreds of thousands of citizens from 
across the world to share their perspectives and experiences, 
strengthen international relationships, increase job and 
business growth, and encourage new leaders to think globally.
    Significant cuts to this budget would threaten the 
important work for our Nation that SCI and other exchange 
programs realize through this funding.
    I thank you again for this opportunity to voice Sister 
Cities International support for the educational and cultural 
exchange programs that are so vital to our network. It is our 
hope that the subcommittee will recognize the need to fully 
fund the division of State for the administration's fiscal year 
2012 budget request to ensure the U.S. continues to support 
these powerful exchange programs that have proven their success 
and their track record for 55 years.
    I will now pause for any questions, and I thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you so much, Mr. Doumas. Appreciate your 
being with us.
    Mr. Doumas. Thank you.
    Ms. Granger. We will now hear from Mr. Alex Palacios, a 
special representative for the GAVI Alliance.
                              ----------                              
                                          Thursday, April 14, 2011.

                             GAVI ALLIANCE


                                WITNESS

ALEX PALACIOS, SPECIAL REPRESENTATIVE FOR THE GAVI ALLIANCE
    Mr. Palacios. Thank you very much, Madam Chair and Ranking 
Member Lowey, for the opportunity to appear before you today.
    I am here on behalf of the Global Alliance for Vaccines and 
Immunization to request that the subcommittee recommend at 
least $115 million under the global health account for U.S. 
contribution to GAVI in fiscal year 2012 of $115 million. This 
is the amount requested by the administration, and I also 
request that the subcommittee recommend at least the 
administration's request of $849 million for the global health 
account for child survival and maternal health.
    GAVI is a global health, public-private partnership. It was 
founded in 2000 with a mission to save children's lives and 
improve people's health by increasing access to immunization in 
over 70 of the world's poorest countries.
    The alliance includes the Bill and Melinda Gates 
Foundation, the private sector, donor and developing countries, 
USAID that serves on our board, and implementing partners such 
as UNICEF and the World Health Organization. The GAVI Alliance 
is an efficient, low-overhead financing mechanism that has 
driven a 10 percent increase in immunization coverage in the 
poorest countries over the past decade, in large part with U.S. 
support and support of many other donors.
    I would like to thank the subcommittee for its strong 
bipartisan support for GAVI over that decade. That support has 
made it possible for the alliance and its partners, 
particularly countries, to prevent the deaths of 5 million 
people around the world from vaccine-preventable diseases.
    An estimated 7,000 children are saved by vaccines every 
single day, and many more are protected from debilitating 
illness or disability. I think that that is a message you will 
hear. You have heard from Ambassador Klosson. I think you will 
hear it also from our colleagues from UNICEF.
    GAVI, now in its 11th year, is focused on addressing major 
causes of child mortality in the poorest countries. The two 
principal causes of child death are pneumonia and diarrhea. And 
together, they account for over one-third of all child deaths. 
And as you heard earlier, 8 million children do die each year 
and largely from preventable causes.
    So the deaths from pneumonia and diarrhea are now 
preventable as the result of the availability of these new 
vaccines, and we have the opportunity to introduce those 
vaccines in over 40 countries over the coming 4 to 5 years. 
This is a child being immunized in Rwanda toward the end of 
2010, the first vaccination in Africa with the pneumococcal 
vaccine.
    I was in Central America in December of 2010 and had the 
opportunity to participate in the launch of the pneumococcal 
vaccine introduction program. Had a chance to talk with mothers 
and families about their aspirations for their children's 
health and well-being.
    And there, they are very, very cognizant of the impact of 
this vaccine. They understand the disability and the death that 
pneumonia can cause, and they have seen it in their own 
families. So the U.S. response, in partnership with GAVI on 
this, is very important.
    I would like to note that although these countries are 
extremely poor, all under $1,500 GNI per capita, all countries 
receiving GAVI assistance do contribute to co-financing 
vaccines from the very start of our program. This also enables 
or paves the way for long-term sustainability of these 
programs.
    The United States share of GAVI funding is about 13 
percent, and as U.S. funding has increased over the years, it 
has leveraged additional funding from other countries and the 
private sector. The U.S. support leverages $7 from other donors 
for every $1 that we invest. So our Nation has played a huge 
role in not only the success, but in bringing onboard others to 
participate.
    In conclusion, Madam Chair, I would like to simply note 
that the GAVI Alliance has achieved concrete success--these are 
real people, real lives--and has saved more than 5 million 
lives over the last 10 years. The opportunity exists today to 
accelerate that and to save 4 million more lives, mostly 
children, by 2015. And I urge the subcommittee to recommend at 
least $115 million for GAVI in fiscal year 2012.
    Thank you very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thanks so much. Thank you very much for being 
here.
    Mrs. Lowey. Thank you for your good work.
    Mr. Palacios. Thank you.
    Ms. Granger. We will now hear from Ms. Ritu Sharma, 
president of Women Thrive Worldwide. You are recognized for 4 
minutes.
                              ----------                              

                                          Thursday, April 14, 2011.

                         WOMEN THRIVE WORLDWIDE


                                WITNESS

RITU SHARMA, PRESIDENT OF WOMEN THRIVE WORLDWIDE
    Ms. Sharma. Thank you.
    Some of you may know that for the last 3 or 4 weeks now, I 
have been fasting with a number of religious leaders to bring 
attention to the potential cuts and what that might mean for 
the poor and vulnerable around the world. So, first, I want to 
thank this committee and in particular both of you for your 
leadership in helping us come out of the fiscal year 2011 
process with protecting some of the most important programs for 
the poor and vulnerable.
    I am also very pleased that we have a good gender balance 
today with our Members of Congress, and I want to thank all of 
you for being here.
    I am not going to ask you for money, and I am not going to 
justify why a certain investment in our foreign operations 
account is needed. What I would rather do is talk to you about 
a very low-cost method to ensure that every single dollar that 
we invest overseas is spent to its highest benefit and most 
efficiently.
    And that method is called gender integration. What that 
means is that we simply look at how men and women both and 
separately will be impacted or need to be engaged in any 
international assistance effort. Our U.S. corporations do this 
process 100 times a day. They do it exquisitely well. They 
spend billions of dollars on it.
    They call that process market research. There is no reason 
that we shouldn't also be doing that kind of market research 
without spending billions of dollars on it in our international 
assistance programs.
    I want to tell you a story of a very well-intentioned, 
well-meaning program in Afghanistan that went horribly wrong 
because it did not integrate gender into it. Several years 
after we liberated Afghanistan from the Taliban, the U.S. 
unrolled a microenterprise, micro development program targeted 
towards Afghan women, very well meaning.
    What we did not do is that we did not integrate or ask or 
educate or inform the men in these women's lives and their 
families--their husbands, their fathers. They were not part of 
this program. As a result, what happened is that an evaluation 
after the program found there were two dramatic negative 
impacts.
    One is that at the end of the program, many of the women 
have pulled out of it before the end of the intervention. And 
we had also increased violence in these households by 39 
percent.
    There is a very simple fix to that, and that is to ensure 
that in every program we do reach out to both men and women. We 
understand their needs, their desires, their beliefs, and we 
integrate them both into any intervention, whether it is 
targeted toward women or not.
    I want to close with a couple of quotes from Afghan women 
who were interviewed as part of this evaluation. One said, 
``Organizations provide opportunities only for women. So women 
have to step out of the house in order for the family to 
survive. These acts have just increased the gap between men and 
women.''
    Another participant said, ``We don't want our men to be 
unemployed and without dignity. Their dignity will also bring 
us more freedom.''
    So I am not here to say don't invest in women, by any 
means. I am here to say let's be smart and effective in how we 
deliver our assistance abroad.
    Thank you so much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you.
    Mrs. Lowey. Ritu, I just want to thank you for your 
eloquence, and I hope we can continue that discussion so we can 
be smarter.
    Thank you.
    Ms. Granger. We will now hear from Dr. Christoph Benn, 
director of external relations of the Global Fund.
                              ----------                              

                                          Thursday, April 14, 2011.

                              GLOBAL FUND


                                WITNESS

DR. CHRISTOPH BENN, DIRECTOR FOR EXTERNAL RELATIONS OF THE GLOBAL FUND
    Dr. Benn. On behalf of the Global Fund, I would like to 
thank Chairwoman Granger, Ranking Member Lowey, the entire 
subcommittee for your leadership on global health and for 
maintaining strong support for the Global Fund in fiscal year 
2011.
    We know you are under tremendous pressure to safeguard 
taxpayers' dollars for proven programs that serve U.S. 
interests. I want to assure you that the Global Fund warrants 
your ongoing support, even in a time of austerity.
    First, the Global Fund is delivering outstanding and proven 
results. Over the past decade, President Bush, President Obama, 
and a bipartisan majority in Congress led the world in 
responding forcefully to AIDS, tuberculosis, and malaria, which 
were killing 6 million people a year, destabilizing regions and 
impairing economic development.
    Today, PEPFAR, the Global Fund, and PMI are delivering real 
and measurable results. HIV infection is down 25 percent in 33 
countries since 2001. TB has fallen in most regions of the 
world, and malaria has declined by 50 percent or more in a 
dozen African countries. We are within striking distance of 
wiping out mother-to-child transmission of HIV and ending all 
deaths from malaria by 2015.
    These numbers don't speak to the human impact on the 
ground, which I witnessed firsthand in the early '90s as a 
medical doctor in charge of Lutheran Hospital in Tanzania. I 
saw so many men, women, and children die because we did not 
have any effective medication. This experience changed my life.
    I recently returned to Tanzania to see what has been 
achieved. At the hospital where I worked, people now receive 
lifesaving AIDS treatment. Families sleep under mosquito nets. 
So it is very rare that babies die helplessly from malaria. 
This transformative achievement is due to your leadership and 
the excellent cooperation between PEPFAR, PMI, and the Global 
Fund.
    Second, the Global Fund is setting new standards for 
transparency and accountability. The fund was built on the 
principles of low overhead and performance-based funding. Its 
ability to leverage at least $2 for every U.S. dollar 
contributed has increased contributions from other donors, 
maximizing the impact of U.S. funds.
    We have a strong and independent inspector general, whose 
budget was recently doubled. He is with me here today. We place 
full audit report findings on our public Web site, and when 
fraud is identified, we act swiftly to suspend or terminate 
grants, refer suspects for prosecution, and recover misspent 
funds.
    Finally, the Global Fund is always improving. In our drive 
for greater effectiveness and value for money, we launched a 
sweeping and comprehensive effort to enhance all financial 
controls, and we appointed an independent panel to conduct an 
exhaustive assessment of our systems. This expert panel, co-
chaired by former HHS Secretary Mike Leavitt and former 
president of Botswana Festus Mogae, will report its 
recommendations this fall.
    We now stand at a true crossroads. If we pull back, the 
diseases will rapidly rebound, causing untold human suffering, 
lost economic opportunity, and diminished stability. But if the 
U.S. and other donors maintain leadership, which comes at a 
very reasonable price, we can turn the corner on the three 
diseases and improve security around the world.
    This unquestionably advances U.S. interests. As President 
Bush himself said recently, no national security strategy is 
complete without promoting global health. I urge you to 
maintain strong support of the Global Fund in 2012.
    Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you so much, and thank you for your work 
and for being with us today.
    We will now hear from Ms. Rachel Wilson, director of policy 
and advocacy for PATH. You are recognized for 4 minutes.
                              ----------                              

                                          Thursday, April 14, 2011.

                                  PATH


                                WITNESS

RACHEL WILSON, DIRECTOR OF POLICY AND ADVOCACY OF PATH
    Ms. Wilson. Chairwoman Granger, Ranking Member Lowey, and 
Members of the committee, thank you for your leadership in 
global health and for the opportunity to testify on behalf of 
global health technology delivery and development at USAID in 
fiscal year 2012.
    My name is Rachel Wilson. I am the director of policy and 
advocacy at PATH, an international nonprofit organization that 
works with the public and private sectors to ensure that health 
innovations reach people who need them most.
    We understand that these are challenging economic times, 
but in terms of return on investment, USAID funding has a 
significant impact. PATH respectfully requests that the 
subcommittee support the President's request for fiscal year 
2012 budget and ensure that we keep our commitments to global 
health.
    In addition to the critical role that USAID and its 
partners play in the field, we ask that the subcommittee 
continue to affirm its support for the unique role that USAID 
plays in advancing innovations in product development and 
delivery to ensure that people in low-resource settings have 
access to lifesaving interventions and technologies.
    Due to its presence in the field and its linkages with end-
users, USAID plays a unique and complementary role to that of 
other U.S. Government agencies in the development of new tools 
for global health. While many commercial and nonprofit groups 
are working on health technologies, there is often not a 
sufficient market to incentivize product development for 
conditions and diseases whose heaviest burden falls on the 
developing world.
    Just two examples of USAID's work to fill this commercial 
gap are the HealthTech cooperative agreement with PATH and 
USAID support of the malaria vaccine development. Over 
HealthTech's 25-year history, 85 technologies have been 
invented or adapted to save women's and children's lives in 
low-resource settings, with billions of units used worldwide. 
More than 95 private sector collaborators have been involved in 
HealthTech, matching USAID dollars 2-to-1.
    For example, through HealthTech partnership with USAID, 
PATH designed one of the first feasible approaches to 
nonreusable syringes for immunization. This, the BD SoloShot 
device has been used in more than 5.4 billion immunizations. In 
fact, just a few months ago, this simple device was used to get 
a new vaccine that prevents meningitis A, also developed with 
assistance from USAID, to nearly 20 million African children 
over a 6-week period.
    For the U.S. Government, the investment in SoloShot was a 
very cost-effective investment. The initial $284,000 provided 
by USAID for SoloShot leveraged $15 million from the private 
sector.
    Another example of USAID's critical work is in the field of 
malaria, one of the leading causes of child death. There is 
absolutely no question that the President's malaria initiative 
and U.S. support for the Global Fund are paying off. These 
efforts must be sustained and strengthened so that these gains 
are not reversed, and children's lives are protected.
    But eliminating malaria will invariably require new tools, 
including a vaccine, an area in which USAID has played a 
crucial role. Under a cooperative agreement with PATH's Malaria 
Vaccine Initiative, USAID is supporting the development of 
next-generation vaccines, particularly those that seek to build 
on the success of the world's most clinically advanced malaria 
vaccine candidate, RTS,S, which PATH is partnering with the 
private sector and African research centers to develop.
    USAID also collaborates with MVI and African governments to 
facilitate a decision on the use of malaria vaccine once it 
becomes available. And when a vaccine is ready, GAVI funding 
will be absolutely critical to getting it implemented.
    Continued progress in our Nation's effort to improve global 
health with new tools and technologies hinges on the support of 
USAID.
    Thank you very much for your time, for your consideration, 
and for all of your leadership on global health.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you very much, and thank you for being 
with us.
    We will now hear from Ms. Cynthia McCaffrey, senior vice 
president of the U.S. Fund for UNICEF. And you will be 
recognized for 4 minutes.
                              ----------                              
                                          Thursday, April 14, 2011.

                          U.S. FUND FOR UNICEF


                                WITNESS

CYNTHIA McCAFFREY, SENIOR VICE PRESIDENT OF THE U.S. FUND FOR UNICEF
    Ms. McCaffrey. Thank you, Madam Chairwoman and Ranking 
Member Lowey and Members of the subcommittee. I appreciate the 
opportunity to present testimony on behalf of the United 
Nations Children's Fund, better known as UNICEF.
    And on behalf of nearly 1 million Americans who support the 
United States Fund for UNICEF, I want to first thank the 
subcommittee for the leadership that you have shown in 
championing children around the world.
    UNICEF is present in over 150 countries and territories, 
and we provide support in prenatal care, child health and 
nutrition, quality basic education for boys and girls, 
protecting children from violence, exploitation, HIV and AIDS.
    With the generous support of the United States and others, 
the number of children who die before their 5th birthdays has 
decreased. And as we see here, it is a dramatic increase over 
the last year since 1990. But as Ambassador Klosson and Mr. 
Palacios said, today 8 million children still die of causes 
that we know how to prevent.
    The U.S. contribution to UNICEF makes sure that we remain a 
world leader so that we can respond to these problems. In areas 
like immunization, UNICEF is responsible for procuring vaccines 
and related items to help eradicate polio, eliminate maternal 
and neonatal tetanus, and control measles.
    In 2009 alone, UNICEF procured vaccines that reached 55 
percent of the world's children worth $806 million. UNICEF is 
proud of the partnerships that we have to save children's 
lives, many of whom have testified today, including the GAVI 
Alliance and the Fast Track Initiative.
    Last week, I visited UNICEF programs in Cambodia, where I 
saw firsthand how people are undaunted by the lack of road or 
great distances, and health workers travel to reach families 
and villages to make sure that they have access to vaccination 
campaigns, prenatal care, and educate them on clean water and 
sanitation. When trucks can't get there, we use motorcycles, 
foot, or even donkeys.
    I was not alone in Cambodia. I had the privilege to travel 
with Kiwanis International, which is a global organization that 
recently selected UNICEF as its partner in its new campaign to 
help children around the world. The Eliminate Project, as it is 
called, aims to eliminate maternal and neonatal tetanus.
    Almost unheard of in the United States, every year 59,000 
newborn babies die of this disease, even though three doses of 
a 60-cent vaccine can protect a mother, who then passes that 
protection on to her baby. We saw several vaccination campaigns 
where moms cheerfully came to have themselves vaccinated as 
well as their babies.
    This campaign will mobilize 600,000 Kiwanians and raise 
$110 million, which will enable UNICEF to immunize 129 million 
women who are the most vulnerable and, therefore, protect their 
children. And it will train women and health workers on safe 
and clean birthing practices.
    Traveling with Kiwanis, I saw firsthand how UNICEF and 
partners stop at nothing to make sure that we get to each 
village and make sure that we get to each family with this 
information about how to prevent this deadly and painful 
disease. We visited health centers where women had just hours 
before given birth in a clean and safe setting and were given 
information about how to feed and care for their children.
    So we saw firsthand how we have direct impact on the lives 
of Cambodian women and children and families. We also saw that 
we are making progress in eliminating this disease altogether. 
So we believe that UNICEF, with the United States as a strong 
partner in our initiatives in development assistance, in these 
kind of programs like in Cambodia and also in being able to 
have the rigor and capacity to respond to emergencies quickly, 
like after the Haiti earthquake.
    And so, I respectfully ask the subcommittee to provide at 
least $134 million as the U.S. Government's voluntary 
contribution to UNICEF in fiscal year 2012.
    Thank you for your kind consideration.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you for being with us. The first 
illustration you showed with the graph, would you get us a copy 
of that, please?
    Ms. McCaffrey. I will leave it for you.
    Ms. Granger. Thank you. I would appreciate that.
    Ms. McCaffrey. And I will also email a more electronic kind 
of copy.
    Ms. Granger. We will share. Good. Thank you very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Granger. We will now hear from Ms. Wendy Lee, member of 
the board of trustees of Helen Keller International. You will 
be recognized for 4 minutes.
                              ----------                              

                                          Thursday, April 14, 2011.

                       HELEN KELLER INTERNATIONAL


                                WITNESS

WENDY LEE, MEMBER OF THE BOARD OF TRUSTEES OF HELEN KELLER 
    INTERNATIONAL
    Ms. Lee. Thank you, Madam Chairwoman and Ranking Member 
Lowey and other Members of the subcommittee.
    I am a volunteer of the board of trustees of Helen Keller 
International, and it is my pleasure to provide testimony for 
the subcommittee.
    Headquartered in the United States, Helen Keller 
International, or otherwise known as HKI, currently offers 
programs in 22 countries around the world. Co-founded in 1915 
by the deaf-blind crusader Helen Keller, HKI is a leading 
nonprofit organization dedicated to preventing blindness and 
reducing malnutrition worldwide.
    I have had the privilege to visit our programs in the field 
and have seen firsthand the incredible and life-changing impact 
that HKI makes in the lives of individuals and communities. 
When I was in Cambodia just last autumn, I was particularly 
struck by our homestead food production program, which not only 
provided families with nutrient-rich foods, but also the 
opportunity to sell extra produce and make some desperately 
needed income for the household. And all the farmers were 
women.
    One child goes blind every minute. Throughout their lives, 
blind children in developing countries must depend completely 
upon their families and government health systems. For a 
majority of these children, this need not occur. Cost-effective 
proven strategies are available to help prevent and treat 
vision loss in children.
    I urge the subcommittee to continue the blind children 
funding at a level of at least the $2 million requested by 
USAID.
    It is estimated that every year 670,000 children will die 
from vitamin A deficiency, and 350,000 of these children will 
go blind. Providing vitamin A to children between 6 months and 
5 years of age reduces child mortality and helps prevent 
blindness and vision impairment. Vitamin A supplementation is a 
cost-effective public health intervention.
    This is a photo, which was taken in Tanzania, of a child 
receiving their semi-annual dosage of vitamin A. These are 
vitamin A tablets. At a cost of approximately $1 per child per 
year, vitamin A can prevent blindness and improve a child's 
chance of survival. I urge the subcommittee to provide at least 
the $150 million requested by the administration for nutrition 
with at least $25 million for vitamin A for fiscal year 2012.
    Neglected tropical diseases inflict severe economic, 
psychosocial, and physical damage on the poorest populations in 
the developing world. The USAID neglected tropical disease 
program has demonstrated how an integrated approach can be 
successful in improving the lives of approximately 1 billion 
people worldwide affected by these diseases.
    For decades, HKI has been a recognized leader in addressing 
two of these tropical diseases, blinding trachoma and 
onchocerciasis, also known as ``river blindness.'' Recently, 
HKI has had considerable success in efforts to control a third 
tropical disease, soil-transmitted worms.
    I urge the subcommittee to recommend at least the $100 
million requested by the administration for the targeted 
program for neglected tropical diseases.
    Nutrition plays an important part in maintaining a quality 
of life for people with HIV/AIDS. I urge the committee to 
support the use of funds in the HIV/AIDS accounts to be used 
for programs that address the development and implementation of 
nutrition support. I also urge the subcommittee to support food 
security and agricultural strategy, which includes improvements 
in nutrition, including micronutrients, and puts the focus on 
supporting small holder families, particularly women farmers.
    Over the years, HKI's partnership with USAID has 
accomplished a great deal, saving the sight and lives of 
millions. We are determined to accomplish even more. Perhaps 
Helen Keller said it best, ``Although the world is full of 
suffering, it is also full of overcoming of it.''
    Thank you for your consideration.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you. Thank you for being here.
    Ms. Helle Dale, senior fellow at the Heritage Foundation. 
You are recognized for 4 minutes.
                              ----------                              

                                          Thursday, April 14, 2011.

                          HERITAGE FOUNDATION


                                WITNESS

HELLE DALE, SENIOR FELLOW AT THE HERITAGE FOUNDATION
    Ms. Dale. Madam Chairwoman, Mrs. Lowey, thank you. Yes, of 
course.
    Thank you very much for inviting me to address the 
subcommittee today. The views I express here are my own. They 
should not be construed as representing the Heritage Foundation 
or any other organization that I am associated with.
    But it is a pleasure to discuss with you today the state of 
U.S. international broadcasting as a foreign affairs expert and 
observer of U.S. foreign policy and communications strategy 
over the past 15 years now.
    Recent decisions by the Broadcasting Board of Governors on 
Voice of America broadcasts to China, as well as a number of 
other major language services, suggest that time has come for 
Congress to take a serious look at the way the U.S. Government 
manages its international broadcasting services. This is a key 
part of U.S. public diplomacy, of U.S. leadership in the world.
    Secretary of State Hillary Clinton, in testimony before the 
House Foreign Affairs Committee on March 1st, expressed strong 
concern over the state of U.S. international broadcasting. 
``Frankly,'' she said, ``I wish we were doing a better job.''
    The decision to cut Voice of America broadcasting to China 
in the President's 2012 budget proposal has attracted a good 
deal of congressional attention, and well it should. China has 
launched a worldwide public diplomacy and media offensive. 
Meanwhile, the United States is looking at a greatly reduced 
international media presence if the projected cuts go through.
    According to the administration's budget proposal, the 
Broadcasting Board of Governors is proposing to cut 45 
positions from the Voice of America Chinese Service, 
effectively gutting its staff. This at a saving of $8 million 
out of a $767 million budget.
    I recently had the opportunity to appear at the Voice of 
America Chinese Service for one of their broadcasts for an 
hour. It is often said that people in China are not able to 
view our programs or listen to our broadcasts. During that 
hour, 500 people from China called the show. Twenty of them 
were able to get through with their comments with time 
constraints. We even had a caller from inner Mongolia.
    These were callers who called from over all China as well 
as Beijing, major cities everywhere, and most of them expressed 
deep concern that if the cuts go through to Voice of America's 
Chinese Service, they would lose an incredibly important 
independent source of news and information in a country where 
this is otherwise highly restricted.
    One caller even said, ``If it is a question of money, I 
would like to send you some,'' which was rather startling 
sitting here in Washington listening to.
    The idea is to realign, from the broadcasting management's 
point of view, to realign transmission and network resources 
and to move most of it to Internet presence with some shortwave 
capability going to Radio Free Asia, another part of the U.S. 
international broadcasting system.
    There is a model for this. Ten days before Russia invaded 
Georgia, we made cuts to the Russian Service and eliminated 
broadcasts to Russia. They have never returned. In my view, 
that was a grave mistake, and VOA's presence in Russia has 
never been the same. It is now a Web site presence.
    In China, as I am sure you know, the Internet is in control 
of the government. It is highly vulnerable to interference and 
censorship, and moving our information services to an Internet-
only platform would put it right in the hands of the Chinese 
government.
    There are many, many reasons why we need to remain a 
presence in China. China has massive viewers, massive 
intelligence operations in the United States. It has a major 
military buildup. It is refusing to allow its citizens access 
to social media and Internet communication. So, therefore, 
broadcasting is what they have to rely on in many parts of 
China, and that includes shortwave broadcasting.
    [The information follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. And I thank you.
    Ms. Dale. You are welcome.
    Ms. Granger. Next is Mr. Samuel Worthington, CEO for 
InterAction, recognized for 4 minutes.
                              ----------                              

                                          Thursday, April 14, 2011.

                              INTERACTION


                                WITNESS

SAMUEL A. WORTHINGTON, CEO FOR INTERACTION
    Mr. Worthington. Thank you, Madam Chair and Representative 
Lowey, for the opportunity to testify and your work on this 
subcommittee.
    And I understand the very tough choices that you need to 
make to distribute limited resources among valuable programs.
    I wanted to make the case today of the importance of 
poverty-focused development and humanitarian accounts 
administered by USAID and the State Department and the high 
return on investment that they provide. These core development 
and humanitarian assistance accounts are low-cost investments 
in peace, security, prosperity that benefit the American 
taxpayer and our Nation's fiscal health.
    Let me stress that point. Investments in these accounts are 
fiscally responsible investments in our balanced budgets. For 
example, funding in basic agriculture through Feed the Future 
program is absolutely critical to help the world's poorest 
provide for themselves and reducing unrest and insecurity. In 
fact, 11 of our top 15 trading partners are graduates of past 
U.S. foreign assistance programs like this one.
    Funding for USAID's Office of Foreign Disaster Assistance 
provides lifesaving food, water, healthcare, shelter for the 
world's most vulnerable people and helps lay the foundation for 
long-term recovery from crisis. For example, a stable South 
Sudan, as it becomes Africa's 54th nation, is important to our 
security. Experts estimate that in every $1 invested in 
disaster risk reduction saves $7 in disaster response cost.
    U.S. relief and development activities support our national 
security, as you both well know. But in order to provide a 
sustained national security dividend, it is important that 
these activities be rooted in lifting people out of poverty in 
the long term and must be implemented by organizations that 
have on-the-ground experience, technical expertise, and 
longstanding relationships with indigenous leaders.
    Experience, expertise, relationships, these are the 
foundational characteristics of the 192 members of the 
InterAction alliance. Organizations like the United Methodist 
Committee for Relief, CARE, World Vision, Save the Children, 
American Jewish World Services, other organizations in this 
room who have testified today are partnering with local 
communities to help them build sustainable livelihoods and 
businesses and a more resilient ability to face disasters.
    These organizations embody the voluntary spirit of the 
global engagement of the American people. They enjoy a high 
level of support from the American public. Private volunteer 
organizations raised $11.8 billion in funding for millions of 
Americans in 2008.
    When USAID and the State Department partner with 
nonprofits, these investments end up leveraging these private 
funds. It is important to note, however, that these private 
dollars are not and can never be a substitute for official U.S. 
development programs. They are an important part of our foreign 
policy toolkits.
    For this public-private partnership to work, our community 
needs an effective and strong partner in the U.S. Government. 
USAID has begun to take strides through USAID Forward reforms 
to make the changes that Congress and the NGO community have 
been calling for. These changes are critical to our partnership 
with USAID, but it needs the resources to implement these 
changes. We strongly urge Congress to support USAID reforms 
through adequate funding of its operating account expense.
    In closing, we appreciate the efforts of the subcommittee 
to allocate important foreign assistance over the last several 
months, particularly in the fiscal year 2011 appropriations 
debate. We are heartened that the core poverty development and 
relief funding were protected from serious cuts in the deal 
reached last week, and we look forward to partnering with you 
and the rest of Congress and the administration to continue to 
do our generation's part to build a more secure and prosperous 
world for our children, a world of peace, prosperity, and 
balanced budgets.
    I thank you again for this opportunity to testify today, 
Madam Chair.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you.
    We will now hear from Mr. John Parker, senior vice 
president of TIG Insurance Company. You are recognized for 4 
minutes.
                              ----------                              

                                          Thursday, April 14, 2011.

                         TIG INSURANCE COMPANY


                                WITNESS

JOHN PARKER, SENIOR VICE PRESIDENT OF TIG INSURANCE COMPANY
    Mr. Parker. Good morning.
    Ms. Granger. Good morning.
    Mr. Parker. Madam Chairwoman and Ranking Member Lowey, 
thank you for the opportunity to appear before your 
subcommittee.
    Unlike many of the witnesses here today, I am not here to 
request funding for any specific project or program. Instead, I 
am here to request that Congress freeze all foreign aid to 
Argentina until it resolves multiple ongoing financial disputes 
with the United States-based insurance companies and satisfies 
in full all United States court judgments against Argentine 
government-owned corporations.
    I also request the Congress instruct the Secretary of State 
to vote no on any requests for aid, loans, or any other form of 
assistance made by the government of Argentina through any 
international organization, such as the Inter-American Bank and 
World Bank, until Argentina meets the requirements above.
    While this may sound excessive, the government of Argentina 
has flagrantly and repeatedly ignored perfected U.S. court 
orders and judgments against my company, TIG Insurance Company. 
And what has happened with TIG appears to be a consistent 
pattern with the Argentine government and to those it owes 
money, both U.S. corporations and the U.S. Government.
    TIG has exhausted all its options, and the many efforts 
undertaken by the U.S. Government on our behalf have been 
frustrated. Again, I am here on behalf of TIG Insurance 
Company. TIG is part of the RiverStone Group, whose office is 
in Manchester, New Hampshire.
    While I am here on behalf of TIG, we understand that the 
frustration that brought me here today is shared by many other 
U.S. insurance companies. Beginning in the '70s, numerous U.S. 
insurance companies entered into reinsurance agreements with 
the Argentinian company Caja, whereby Caja was paid a premium 
in exchange for their agreement to pay their share of losses. 
Reinsurance is a widely used mechanism used by insurance 
companies to spread their risk, and it has been described as 
insurance for insurance companies.
    Under the contracts, Caja agreed to reinsure policies 
issued to the United States Fortune 1000 companies. Until 1991, 
Caja was an insurance company owned by the Argentinian 
government. During the financial crisis in the '90s, the 
Argentinian government restructured Caja. Under the 
restructuring, the government of Argentina retained all of 
Caja's foreign debt, including ours.
    As the United States insurance companies paid losses under 
these policies, Caja refused to honor its obligations under the 
reinsurance contracts. Because the insurance companies were 
unsuccessful in collecting the money from Caja in the ordinary 
course, we, of course, had to resort to arbitration and 
litigation in the U.S. courts.
    TIG was one of those companies, and obtained judgments 
totaling $7 million. Caja's defenses and various appeals were 
rejected.
    Following the judgments and our attempt to discover 
Argentinian assets, Caja ignored orders to comply with Federal 
court orders, and those sanctions are now $4,000 per day. We 
are now owed over $23 million.
    TIG has repeatedly for years sought a compromise on this 
matter. However, all of TIG's offers have been met with 
silence.
    I should note that TIG has also worked with Members of 
Congress and Senators from both parties to encourage the 
Argentines to resolve this issue. The State Department, under 
both President Bush and President Barack Obama, has also worked 
very hard on our behalf. However, nothing has come as a result 
of these efforts.
    In closing, I would like to acknowledge that, yes, this is, 
in essence, a private contractual matter. However, it has 
evolved into much more. On the one hand, you have a U.S. 
company who entered into valid contracts, honored its 
obligations under those contracts, and obtained valid U.S. 
court judgments.
    On the other hand, you have a foreign government who has 
sought and received aid from our Government while it completely 
ignores obligations to U.S. corporations and the U.S. 
Government. This should not be countenanced. Please do not 
assist Argentina in any way until they honor their obligations.
    Thank you very much for your time.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you for your time and for the 
information.
    Ms. Lisa Haugaard, executive director of the Latin America 
Working Group, 4 minutes.
                              ----------                              

                                          Thursday, April 14, 2011.

                      LATIN AMERICA WORKING GROUP


                                WITNESS

LISA HAUGAARD, EXECUTIVE DIRECTOR OF THE LATIN AMERICA WORKING GROUP
    Ms. Haugaard. Thank you for the opportunity to appear 
before this subcommittee.
    As a coalition of faith-based organizations, humanitarian 
aid agencies, and nongovernmental groups, we urge you not to 
turn your backs on vulnerable people in Latin America, nor 
abandon wise choices that can create lasting peace and security 
in the hemisphere as you make these difficult budget choices.
    In Latin America, USAID programs protect those at risk from 
disaster, deadly disease, and conflict. Programs such as 
development assistance for small farmers help impoverished 
people raise themselves to a better life. The Multilateral Debt 
Relief Initiative helps countries free up funds so that they 
can dedicate more towards poverty reduction themselves. The 
Inter-American Foundation's compact budget supports small-scale 
self help.
    U.S. assistance programs reduce threats from drug 
trafficking and drug-related violence that directly affect the 
communities that you represent. USAID supports efforts by 
Andean farmers to abandon coca and grow food crops instead. 
USAID and DOJ help Mexico, Colombia, and Central American 
nations strengthen courts and prosecute drug trafficking 
mafias.
    The U.S. Institute for Peace encourages fresh approaches to 
ending conflicts. These programs, in the long run, are less 
costly and provide more sustainable solutions than emergency 
military programs to address drug-related violence that has 
spiraled out of control.
    With the maze of funding categories, it can be hard to 
understand why particular cuts might fall so hard. For example, 
most Members of Congress support assistance to Colombia. Yet to 
ensure that good programs for Colombia are not cut, you have to 
know that programs to support alternative development aid Afro-
Colombian communities, strengthen human rights, and help people 
displaced by violence, the vast majority of whom are women and 
children, come from economic support funds.
    Indeed, economic support funds, which has a name even its 
own mother couldn't love, is a catch-all category that fails to 
convey the importance of the programs it happens to fund in 
Latin America. In Mexico, ESF supports crime prevention in 
Ciudad Juarez and human rights training for police and 
prosecutors.
    If your goal is to effectively reduce illicit drug 
production and the power of drug cartels and strengthen the 
rule of law in Colombia and Mexico, I know you will find a way 
to support those programs.
    There are programs in the President's budget for Latin 
America that could stand further cuts. Aid that encourages 
militaries to carry out internal security is damaging, as is 
assistance to security force units that commit abuses with 
impunity. Military and police aid makes up at least one-third 
of aid to the region in the foreign ops budget alone, and it is 
an even greater percentage if you look at what is in the 
defense bill as well.
    If the United States cuts humanitarian assistance and does 
not cut military assistance, the U.S. footprint in the region 
looks more like a boot print, and I know that is not the image 
that our Nation should wish to convey.
    The President's budget fails to adequately fund migration 
and refugee assistance, which helps Colombia and its neighbors 
deal with the largest conflict-driven humanitarian crisis in 
the world. This has protected children from forced recruitment, 
helped refugee women who have survived sexual violence, and 
offered a lifeline of food aid and income-generating 
opportunities for refugees living in peril.
    Finally, we urge you to hold true to our commitment to help 
Haiti recover from the earthquake. U.S. assistance has saved 
lives, but rubble still has not been removed. Hundreds of 
thousands of people remain in precarious conditions in camps. A 
cholera epidemic has had deadly impact, and many Haitians have 
not been able to rebuild their livelihoods and their lives.
    The U.S. Government needs to listen harder to input from 
Haitian civil society about the best path towards recovery, but 
the United States should not cut funding or walk away.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you so much. Thank you for being with 
us.
    We will now hear from Mr. Bill Millan, senior policy 
adviser of the Nature Conservancy. [Laughter.]
    Thank you.
                              ----------                              

                                          Thursday, April 14, 2011.

                           NATURE CONSERVANCY


                                WITNESS

BILL MILLAN, SENIOR POLICY ADVISER OF THE NATURE CONSERVANCY
    Mr. Millan. It has been a long hearing, Madam Chairman.
    Ms. Granger. It has been, obviously. [Laughter.]
    Mr. Millan. Thank you very much for the opportunity to be 
here today, and thank you, the Members of the committee, the 
Ranking Member Lowey.
    It is a great pleasure to see you again and to represent 
the Nature Conservancy, an organization of which I am immensely 
proud and for which I have now worked for 15 years. I am sure 
you know about us. We are in all 50 States, and we are in 40 
foreign countries.
    I will be very brief out of deference to those who come 
behind me.
    There is an arc of ecological destruction stretching across 
the tropics today. We could easily name 20 countries that are 
affected by the poor management of sustainable natural 
resources. Fertile soil, clean and abundant water, fish, 
forests, biodiversity--they are all being badly managed for a 
complex set of reasons involving culture, economics, 
demographics, and so forth.
    Many of these countries will not succeed unless they get 
some degree of outside help, and they are getting help from the 
United States and from other donors, including Norway, Germany, 
France, England, and so forth. As General Zinni said last year, 
protecting green wealth in the developing world offers far 
greater potential for peace and prosperity, and loss of green 
natural resources--such as forests and fresh water, fish, 
fertile soils--can play a significant role in driving 
instability and conflict.
    There are, as the facts clearly demonstrate, very large 
unmet needs for conservation help in the poor countries of the 
world. But we recognize that times are tough. We recognize in 
the current fiscal situation some degree of austerity is 
inevitable.
    Conservation programs should shoulder their fair share of 
any reduction. We simply ask that they not be 
disproportionately targeted for reduction. In a spirit of 
responsibility, therefore, the conservancy urges the committee 
to continue its tradition of support for international 
conservation by doing two things.
    One is to restore a line item for conservation in USAID 
within the development assistance account, a separate line 
item. We are concerned that without a line item, this mission 
may be neglected.
    And secondly, that it fund that line item at something 
fairly close to the fiscal year 2010 level, less whatever 
reduction is ultimately taken in the overall development 
assistance account. Beyond that, of course, we support other 
good missions that are linked to conservation internationally.
    We support the climate and ask, especially in regards to 
forest conservation and adaptation by poor people. We support 
an appropriation for the Global Environment Facility, and we 
support the Tropical Forest Conservation Act.
    Thank you, Madam Chairman.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you. Thank you very much.
    Mr. Millan. You are very welcome.
    Ms. Granger. Ms. Sally Cowal, chief liaison officer of 
Population Services International.
                              ----------                              

                                          Thursday, April 14, 2011.

                   POPULATION SERVICES INTERNATIONAL


                                WITNESS

SALLY COWAL, CHIEF LIAISON OFFICER OF POPULATION SERVICES INTERNATIONAL
    Ms. Cowal. Thank you very much.
    Representing Population Services International, a 
Washington-based global health nonprofit organization and a 
major implementing partner of the U.S. Government, I want to 
thank you, Madam Chairwoman and Ranking Member Lowey and the 
other Members of the committee, for this opportunity to submit 
testimony on global health appropriations for fiscal year 2012.
    I think Members of Congress and their constituents are 
right to demand greater efficiency and cost effectiveness from 
all Federal spending. We clearly understand the challenging 
budget environment we face. On behalf of the 8,000 PSI 
employees in 65 developing countries around the world working 
to save and improve the lives of the world's poor and 
vulnerable, I would like to tell you why I think the United 
States investments in global health are smart and cost 
effective and vital to our national interests.
    We know America's future is global. Our markets are 
increasingly global. Our economic interests and American jobs 
depend on thriving markets for American goods, dependable trade 
partners, sympathetic allies, and global stability.
    Global health programs yield healthy societies and healthy 
economies, stable and successful partners for the United 
States, and contributors to the world's prosperity. In 
contrast, countries that cannot provide for the health of their 
own populations tend to be those where instability, violence, 
and threats to international security take root.
    As an example of the positive power of global health 
programs, look at Rwanda, where PSI implements programs 
addressing child mortality, HIV, malaria, and reproductive 
health. Rwanda reduced malaria cases by 70 percent between 2001 
and 2010. The modern contraceptive prevalence in Rwanda 
increased dramatically from just 4 percent in 2000 to 27 
percent in 2008. And public health gains such as these have 
contributed to an annual average growth rate of 7.8 percent for 
Rwanda's economy.
    We must credit, of course, the leadership of the Rwandan 
government, which benefited from the resources provided by the 
United States and other donors for this result. And I commend 
this subcommittee for its role in ensuring that Rwanda and 
other countries have the assistance they need to move their 
countries down the path to development, democracy, and 
stability.
    President Obama's fiscal year 2012 budget request reflects 
the recognition of the return on investment yielded by global 
health programs, and PSI supports, as a minimum, the 
President's request. In the interest of time and to let my 
colleagues have their chance, let me just mention one thing 
that I think has been so far neglected in the many interesting 
things we have heard here this morning, and that is the 
importance of international family planning and reproductive 
health programs.
    The President requested $626 million for fiscal year 2012. 
The estimated U.S. fair share to address the unmet need 
globally is $1 billion a year, yearly. By fulfilling the unmet 
need for family planning methods, an estimated 215 million 
women who want to avoid a pregnancy are not using an effective 
modern method of contraception. The United States and other 
donors could achieve a net total savings because fewer 
unintended pregnancies mean lower cost for maternal and newborn 
health services.
    Additionally, PSI urges Congress not to reimpose the Mexico 
City policy. Its effect is to reduce women's access to 
contraception, thereby increasing the chance that they will 
seek abortions for unintended pregnancies.
    We know that investments in family planning reduce the 
number of abortions in the world and address the appalling fact 
that the most dangerous condition for women in Africa is simply 
to be pregnant.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you very much for being here.
    Mr. James Lacy, chairman of Rotary Polio Eradication 
Advocacy Task Force.
                              ----------                              

                                          Thursday, April 14, 2011.

              ROTARY POLIO ERADICATION ADVOCACY TASK FORCE


                                WITNESS

JAMES LACY, CHAIRMAN OF ROTARY POLIO ERADICATION ADVOCACY TASK FORCE
    Mr. Lacy. Chairwoman Granger, Ranking Member Lowey, on 
behalf of nearly 400,000 Rotarians in the United States, I 
thank you for your commitment to global polio eradication.
    The Global Polio Eradication Initiative, which features 
outstanding collaboration among governments, civil society, and 
U.N. agencies, protects the most vulnerable from the crippling 
disease of polio through immunization. These campaigns are 
often combined with complementary intervention, such as the 
distribution of vitamin A drops, oral rehydration therapy, zinc 
supplements, and even something as simple as the distribution 
of soap.
    The goal of a polio-free world is within our grasp because 
polio eradication strategies have worked even in the most 
challenging environments and circumstances. Thanks to this 
subcommittee's leadership in appropriating funds for USAID's 
Polio Eradication Initiative, 2010 saw a significant progress 
in polio eradication.
    Only four countries--Afghanistan, Pakistan, India, and 
Nigeria--have not stopped polio transmission. The number of 
polio cases has fallen from an estimated 350,000 in 1988 to 
less than 1,300 in 2010, a more than 99 percent decline in 
reported cases.
    The reduction of cases in the three of the four endemic 
countries between 2009 and 2010 has been particularly dramatic. 
India, 741 cases 2009, 42 cases 2010, and only 1 case to date 
this year. Nigeria, 388 cases 2009, 21 cases in 2010, and to 
date, only 5 cases. Afghanistan, 38 cases to 25, and to date, 
2011, 1 case.
    Bivalent oral polio vaccine, which was introduced at the 
end of 2009, has proven effective and has been a major factor 
in the progress made in 2010 and 2011. A shortfall in the 
funding needed for polio eradication activities in polio-
affected and at-risk countries continues to pose a serious 
threat to the achievement of a polio-free world.
    Rotary International, a global association of more than 
33,000 Rotary Clubs in more than 170 countries with a 
membership of over 1.2 million business and professional 
leaders, has been committed to battling polio since 1985. 
Rotary International has contributed more than U.S. $1 billion 
toward a polio-free world, representing the largest 
contribution by an international service organization to a 
public health initiative ever, plus thousands of man-hours of 
volunteer service.
    The World Health Organization estimates that $1.98 billion 
is needed from donors for the period 2013 to 2015. For fiscal 
year 2012, we respectfully request this subcommittee to 
consider providing $39.5 million for the Polio Eradication 
Initiative activities to USAID, the same level included in the 
President's fiscal year 2012 budget.
    Since 1988, over 5 million people who would otherwise have 
been paralyzed will be walking because they have been immunized 
against polio. The global network of 145 laboratories and 
trained personnel established during the Polio Eradication 
Initiative also tracks measles, rubella, yellow fever, 
meningitis, and other deadly infectious diseases and will do so 
long after polio is eradicated.
    National immunization days for polio have already been used 
to distribute essential vitamin A, thereby saving the lives of 
over 1.25 million children since 1988. A study published in 
November--I would just end to say that we have done a marvelous 
job with the assistance of the U.S. Government, and we would 
hope that you would consider our continued support.
    Thank you very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you, and thank you for being here.
    We will now hear from Mr. Luther Luedtke, vice chair of the 
Basic Education Coalition, recognized for 4 minutes.
                              ----------                              

                                          Thursday, April 14, 2011.

                     THE BASIC EDUCATION COALITION


                                WITNESS

LUTHER LUEDTKE, VICE CHAIR OF THE BASIC EDUCATION COALITION
    Mr. Luedtke. Thank you.
    My name is Luther Luedtke. I am president and CEO of the 
Education Development Center, and I am honored to speak today 
in my role as vice chair of the Basic Education Coalition.
    We deeply appreciated the $925 million Congress 
appropriated for basic education in 2010 and sincerely thank 
Chairwoman Granger and Ranking Member Lowey for your strong, 
consistent leadership in providing hope and opportunity to the 
world's children.
    Basic education programs would benefit greatly from more 
than $1 billion in funding in fiscal year 2012, and in 
different economic circumstances, we would be advocating that 
number. Given our country's financial difficulties, however, we 
recognize that sacrifices must be made, and we hope that the 
basic education funding for fiscal year 2012 can be held at the 
current level, and if there are cuts, that they will be 
minimal.
    The global unrest today is at least partly rooted in the 
millions of children and youth who are not receiving a 
meaningful education and have little hope for the future. I 
just returned from Pakistan, where half of the poorest children 
are out of school, and many of those in school simply aren't 
learning.
    Of the 67 million young children worldwide who are still 
out of school today, 42 percent are in conflict-affected poor 
countries. Another 74 million adolescents are also out of 
school.
    By 2050, there will be 1.2 billion youth in the world, and 
population growth is exploding in those volatile countries with 
the lowest literacy rates--Pakistan, Bangladesh, Nigeria, 
Ethiopia. Good-quality basic and secondary education is 
critical to overcoming the economic despair that contributes to 
violent conflict.
    Education helps expand our overseas markets and promote 
U.S. employment. The fastest-growing markets for American goods 
are in developing countries, which represent 40 percent of U.S. 
exports and, as we heard earlier, 1 out of every 5 American 
jobs.
    Ensuring that children are in school and learning is 
equally important for political reform. As Thomas Jefferson 
taught us long ago, a population that can read, write, and 
think critically will hold its leaders accountable. There is 
simply no better way to stretch our development dollars than to 
invest in education.
    Young people who have completed primary education are half 
as likely to contract HIV and AIDS. Half the reduction of child 
mortality over the past 40 years has been attributed to the 
better education of women, and educating women has been the 
most important factor in reducing malnutrition. Schools are 
commonly the center of other development activities, too, such 
as deworming and clean water access, what Mrs. Lowey has called 
communities of learning.
    With relatively modest investments, we can greatly expand 
our reach. Each $10 million of support means 100,000 more 
children annually will receive a good-quality primary school 
education.
    Innovative, low-cost technologies such as cell phones and 
interactive radio are enabling us to reach children who would 
otherwise remain marginalized and vulnerable. The cost 
effectiveness is even greater when we educate women and girls, 
which boosts economic productivity, postpones sexual contact, 
curbs child marriage, and increases per capita income.
    It is crucial that we focus on education quality, of 
course, as well as access. We need well-qualified teachers who 
employ effective relevant curricula, have adequate time with 
students, and promote active learning. We also need to 
rigorously measure impact.
    The U.S. has set the standard for international basic 
education. With strong congressional engagement, long-term 
predictable funding, innovative solutions, and strategies that 
directly address country needs, we can have an even deeper, 
more sustainable impact.
    Thank you for your support and for your consideration of 
our request.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you very much, and thank you for being 
with us.
    We will now hear from the Honorable Marjorie Margolies, the 
president of Women's Campaign International. I would say the 
Honorable and very patient Marjorie Margolies.
    Thank you for being here
                              ----------                              

                                          Thursday, April 14, 2011.

                     WOMEN'S CAMPAIGN INTERNATIONAL


                                WITNESS

HON. MARJORIE MARGOLIES, PRESIDENT OF WOMEN'S CAMPAIGN INTERNATIONAL
    Ms. Margolies. Well, thank you for having me.
    Mrs. Lowey. Thank you for hanging in there.
    Ms. Margolies. Madam Chairwoman and distinguished Members 
of the committee, thank you for allowing me to speak today 
before the subcommittee.
    I am here on behalf of Women's Campaign International, an 
organization which was founded in 1998. We are requesting 
continued support for our programs from USAID.
    Following my extremely short stay on the Hill, I was 
appointed to be director of the U.S. delegation for the United 
Nations Fourth World Conference in Beijing. Here, we saw in 
action what happens when women leaders come together, get 
together, and understand that more women are needed at the 
table. It was out of this conference that Women's Campaign 
International was born, mainly to support women's participation 
and to create a platform from which their voices could be 
heard.
    Since this conference, the importance of women's 
participation has been cited by the United Nations, World Bank, 
USAID. And I am actually going to just put the statistics in 
the record because you are very familiar with them, and they 
are sad.
    It has been shown that with money, when women have funds, 
they are more likely to invest in their families and their 
communities. With what decision-making power they have, women 
are more likely to direct funds toward social programming, 
health, education, peace building. You know this, and that is 
what WCI is aiming to do.
    We have been in more than two dozen countries, and we are 
really promoting women's participation in public advocacy, 
market, and political processes. Let me just give you two short 
stories.
    One of the women we helped get elected was named Callista 
Chimombo. She was then put on the president's cabinet. She was 
a member of parliament, put on the president's cabinet, and 
then she married him. So she is now--and he was head, Bingu wa 
Mutharika was the head of the African Union. So she is working 
very--really, I met with her yesterday at the U.N. And now she 
is a first lady.
    And as a first lady, Callista has decided to use this 
platform in the most effective way that she knew, and that is 
for advocating for women leaders, safe motherhood, healthcare 
for women and girls. And she is now playing a significant role 
in WCI's First Ladies Strategic Initiative. It is a program to 
help build the capacity of the offices and first ladies in 
Africa.
    As I said, I just met with her yesterday, and she is just 
amazing. She also helped us with a project that we did with 
getting women tested. We actually had the women's caucus. We 
doubled the number of women in parliament. They will attest to 
the fact that we really helped them in 2003. Doubled the number 
of women, and then when we came back for an HIV/AIDS 
conference, they said, ``What can we do?'' And we said get 
tested, and they did.
    And they admit to quadrupling the number of people who were 
tested in their communities because then they got retested in 
their communities. It was an incredible program.
    We are also committed to supporting sustainable community-
based development. Let me tell you a little bit about Liberia. 
We have a 3-year program there. We have worked with market 
women. Ellen Johnson Sirleaf's grandmother was a market woman, 
and they are not measured.
    So we are there, working with market women, to give them, 
to empower them. I will tell you a story. Because the roads are 
so bad, crops go bad. In one of the areas, we convinced the 
women to buy a cassava grinder. They had a little grant.
    They bought a cassava grinder. On the weekends, they rented 
it out, made enough money to build a little furniture store. 
Made enough money to build a little restaurant. With one 
cassava grinder, and it is extraordinary what they can do and 
what they will do. And that is what we are trying to do. Over 
the next 2 years, WCI is going to work with this group so that 
they can create and implement a plan to maintain these tools.
    We had a team come back, a leadership team come back from 
Afghanistan. At the end, the women said it was the best 
training they had ever had by a lot. So we know how much we can 
do.
    I see a red light. So I am basically here today to 
respectfully ask the committee to support political candidates 
like Callista and our community groups in Liberia, to encourage 
USAID to provide funding for our vital mission.
    And we learn all over the place that we speak the same 
language, but we all speak the same mother tongue.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lowey. Thank you.
    Ms. Granger. Thank you very much.
    Mrs. Lowey. Thank you for hanging in there.
    Ms. Granger. Thank you to everyone that was here today.
    Thank you, Mrs. Lowey, for sticking with us.
    Mrs. Lowey. Thank you, Madam Chair.
    Ms. Granger. You are welcome.
    Thank you all for coming today and for those that have 
submitted testimony. That concludes today's hearing. The 
hearing is adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
